               NATIONAL COUNCIL OF SENIOR CITIZENS, INC.
                NATIONAL SENIOR CITIZENS EDUCATION
                     AND RESEARCH CENTER, INC.
                           Silver Spring, MD

              REPORT ON U.S. DEPARTMENT OF LABOR GRANT
                         FOR FISCAL YEAR 1996




                               FINAL REPORT




This audit was performed by Myint & Buntua, CPAs, under contract to the Office of
Inspector General, and, by acceptance, it becomes a report of the Office of Inspector
General.




                                             Assistant Inspector General for Audit




                                              Audit Report No. 18-99-011-03-360

                                              Date Issued:
                                                    TABLE OF CONTENTS



                                                                                                                                   Page

ACRONYMS AND GLOSSARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

INTRODUCTION AND BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

OBJECTIVES AND SCOPE OF AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

INDEPENDENT AUDITORS' REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

INDEPENDENT AUDITORS’ REPORT ON
  INTERNAL CONTROL STRUCTURE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

INDEPENDENT AUDITORS’ REPORT ON
  COMPLIANCE WITH LAWS AND REGULATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

        Finding

        No. 1        Hospital Indemnity Insurance Plan Refund . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

        No. 2        Hospital Indemnity Insurance Plan Administrative Fees . . . . . . . . . . . . . . . . . . . . . 22

        No. 3        Third-Party General Liability Insurance Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

        No. 4        Pension Plan Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37

        No. 5        Fringe Benefit Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

        No. 6        EPA Senior Environmental Employment Program--
                     Enrollees Fringe Benefit Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

        No. 7        Housing Safety Program . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

        No. 8        Indirect G&A Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
                                        TABLE OF CONTENTS - (CONTINUED)



                                                                                                                                       Page

         No. 9         Distribution of Indirect Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

         No. 10        Fiscal Monitoring of Subrecipients . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 56

         No. 11        Program Monitoring of Subrecipients . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 58

EXHIBITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 62

    Exhibit A -            Proposed and Audit-Recommended Direct and Indirect
                           Costs of DOL SCSEP Grant for FY 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

    Exhibit B -            Proposed and Audit-Recommended Direct and Indirect
                           Costs of EPA SEE Program Grant for FY 1996 . . . . . . . . . . . . . . . . . . . . . . . . 64

    Exhibit C -            Proposed and Audit-Recommended Indirect Costs
                           and Rates for FY 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

    Exhibit D -            FY 1996 Allocation Base of Indirect and Direct In-House Costs . . . . . . . . . . . . 66


APPENDIX . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68

    Auditee’s Comments (Dated June 11, 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69
                  ACRONYMS AND GLOSSARY


ACRONYMS


   CFR      -   Code of Federal Regulations
   CSL      -   Combined Single Limit
   DOL      -   U.S. Department of Labor
   EEOC     -   U.S. Equal Employment Opportunity Commission
   EPA      -   U.S. Environmental Protection Agency
   ETA      -   Employment and Training Administration, U.S. Department of Labor
   FAR      -   Federal Acquisition Regulation
   FSR      -   Financial Status Report
   FY       -   Fiscal Year
   G&A      -   General and Administrative (Expense)
   HIP      -   Hospital Indemnity Plan
   HMC      -   Housing Management Corporation (NCSC Subsidiary)
   JTPA     -   Job Training Partnership Act
   LOC      -   Letter-of-Credit
   NCSC     -   National Council of Senior Citizens, Inc.
   NSCERC   -   National Senior Citizens Education and Research Center, Inc.
   OCD      -   Office of Cost Determination, U.S. Department of Labor
   OEC      -   Other Enrollee Costs
   OIG      -   Office of Inspector General, U.S. Department of Labor
   OMB      -   U.S. Office of Management and Budget
   PY       -   Program Year
   SA       -   Senior Aides (or SCSEP Enrollees)
   SCMICRRG -   Senior Citizens Mutual Insurance Company Risk Retention Group
   SCSEP    -   Senior Community Service Employment Program
   SEE      -   Senior Environmental Employment (EPA)

                                       i
                       ACRONYMS AND GLOSSARY


GLOSSARY



   Direct Costs        -   Costs that can be identified specifically with a particular cost
                           objective, e.g., Senior Community Service Employment Program.

   Indirect Costs      -   Costs which cannot be identified with a single, final cost objective but
                           are identified with two or more final cost objectives. Such costs are
                           combined into groupings for distribution to final cost objectives.

   Allocation Base     -   A group of costs used to distribute indirect costs to benefitting final
                           cost objectives.

   Questioned Costs    -   Costs that are questioned because:

                           (a)   the expenditure is an alleged violation of a provision of a law,
                                 regulation, contract, grant, cooperative agreement, or other
                                 agreement or document; or is

                           (b)   not supported by adequate documentation; or are

                           (c)   expenditures that were unnecessary or unreasonable.

   Fiscal Year (FY)    -   The annual period beginning with July 1 of each year and ending on
                           June 30 of the following year. For example, July 1, 1995 to June
                           30, 1996, is Fiscal Year 1996 under NCSC/NSCERC’s financial
                           system.

   Program Year (PY)   -   The annual period beginning with July 1 of each year and ending on
                           June 30 of the following year. For example, July 1, 1995 to June 30,
                           1996, is Program Year 1995 under the DOL Senior Community
                           Service Employment Program.




                                           ii
                                    EXECUTIVE SUMMARY


 AUDIT RESULTS


        Myint & Buntua, CPAs, under contract with the Department of Labor (DOL), Office of Inspector
General (OIG), audited the costs claimed for reimbursement ($60.8 million Federal share) by the National
Council of Senior Citizens, Inc. (NCSC) and its related organization, the National Senior Citizens
Education and Research Center, Inc. (NSCERC), for the performance of its DOL Senior Community
Service Employment Program (SCSEP) grant for Fiscal Year (FY) 1996.

        The SCSEP involves the recruitment of disadvantaged seniors (enrollees) 55 years of age and older
who perform part-time services of up to 1,300 hours a year at community service organizations (host
agencies), such as schools and nursing homes. Enrollees are paid at or near the minimum wage rate ($5.15
an hour during the period audited) from SCSEP. The assignments are for training or retraining to assist
enrollees in obtaining unsubsidized employment. NSCERC has about 9,000 enrollees and receives annual
SCSEP grants of about $60 million a year. Local community activities are managed by about 150
subrecipients. Enrollees are employees of the subrecipients. NSCERC also administers a similar
Environmental Protection Agency (EPA) grant program at a cost of about $7.2 million a year.


 WE QUESTION ABOUT $2.8 MILLION ($1.6 MILLION IN DIRECT COSTS AND $1.1
 MILLION INDIRECT COSTS) OF THE $60.8 MILLION                                    CLAIMED         FOR
 REIMBURSEMENT BY NCSC/NSCERC FOR FY 1996.

 THE QUESTIONED DIRECT COSTS CONSIST OF:

      !   $948,983 IN HOSPITAL INDEMNITY INSURANCE PLAN (HIP) REFUNDS,
      !   $244,584 IN HIP ADMINISTRATIVE FEES,
      !   $237,532 IN GENERAL LIABILITY INSURANCE COSTS,
      !   $103,545 IN PENSION PLAN COSTS, AND
      !   $108,872 IN FRINGE BENEFIT COSTS.

 THE QUESTIONED INDIRECT COSTS RESULTED FROM RECOMMENDED CHANGES
 TO THE COSTS PROPOSED IN THE INDIRECT COST POOL AND THE ALLOCATION
 BASE.
 IN ADDITION, WE IDENTIFIED SEVERAL AREAS IN NCSC/NSCERC’S
 ADMINISTRATION OF THE DOL SCSEP PROGRAM WHERE COSTS COULD BE
 REDUCED WITHOUT ADVERSELY AFFECTING PROGRAM OPERATIONS. THESE
 FUNDS, WITH DOL APPROVAL, COULD BE USED TO INCREASE THE NUMBER OF
 SCSEP ENROLLEES.



                                                   iii
        A summary of the Federal share of the direct and indirect costs proposed by NCSC/NSCERC
and the amount questioned by the auditors is shown below and in Exhibit A.


                                      Proposed by       Questioned        Recommended
                                   NCSC/NSCERC          by Auditors          by Auditors
              Direct Costs              $58,346,872       $1,643,516        $56,703,356

              Indirect Costs              2,482,028        1,134,744           1,347,284

              Total Costs               $60,828,900       $2,778,260        $58,050,640



      A. COSTS QUESTIONED
                                                                             FY 1996 Costs
FINDING                                                              Direct Costs   Indirect Cost Pool

1.   HOSPITAL INDEMNITY PLAN REFUNDS*

     NCSC/NSCERC provides DOL Senior Aides (enrollees)
     Hospital Indemnity Plan (HIP) insurance. NCSC/NSCERC
     pays the entire premium and charges the costs directly to the
     DOL grant. The underwriter of the insurance plan - the
     MonumentalLife Insurance Co. - advised NCSC/NSCERC that,
     based on the terms of the HIP agreement and its “favorable
     claims experience,” NCSC/NSCERC had earned a substantial
     premium “refund” for FY 1996. However, contrary to the terms
     of the DOL grant, NCSC/ NSCERC did not “credit” the refund
     to DOL, but included the amount received as “royalty income.”
     We question NCSC/NSCERC’s failure to credit the DOL grant
     with the refund. (Finding No. 1.)                                   $948,983

2.   HOSPITAL INDEMNITY PLAN ADMINISTRATIVE                              costs for the administrative
     FEES                                                                fees that NCSC/NSCERC
                                                                         received. (Finding No. 2.)
     To compensate NCSC/NSCERC for its costs of performing * See Page xiii -- Subsequent
     certain administrative duties for the HIP, the Monumental Life Events.
     Insurance Co. pays an administrative fee of 14.5 percent of
     earned premiums, which NCSC/NSCERC “shares” with
     Seabury & Smith, Inc. -- the intermediary who also performs
     certain administrative functions. NCSC/NSCERC credited the
     amounts that it received to “membership promotion income”
     instead of applying these amounts, as an “offset credit,” to the
     DOL grant costs which were directly charged for the
     administrative functions. We, therefore, credited the DOL grant


                                                 iv
                                                                       FINDING

                                                                       2.  HOSPITAL INDEMNITY
                                                                       PLAN (CONT’D)




     101,207

          FY 1996 Costs
Direct Costs Indirect Cost Pool


      Furthermore, based on our review, we believe that the present
      fee sharing arrangement (28% to NCSC/NSCERC and 72% to
      Seabury) is inadequate to reimburse NCSC/NSCERC for the
      administrative work it performs as compared to Seabury. We
      estimate that a “sharing” of 1/3 for Seabury and 2/3 for NCSC
      would more equitably reflect the administrative work performed
      by the two parties. Accordingly, we question the amounts paid
      to Seabury in excess of 1/3 of the total administrative fees.
      (Finding No. 2.)                                                    $143,377

3.   THIRD-PARTY GENERAL LIABILITY INSURANCE                                     paid to its affiliated
                                                                                 company in excess of
     NCSC/NSCERC purchased third-party general liability insurance               $100,000 a year, which
     from an insurance company (Senior Citizens Mutual) with which               was the maximum
     it shares management and executive personnel. The insurance                 amount that we estimate
     is for bodily harm and accidental damages to third parties that             should have been paid
     may be caused by work related activities of DOL and EPA                     for the insurance if
     enrollees. In soliciting bids from insurance companies and in               NCSC followed
     making the award to its “affiliated” company, NCSC/NSCERC                   appropriate competitive
     did not follow acceptable competitive procurement procedures.               procurement procedures.
                                                                                      (Finding No. 3a.)
      a.   The FY 1996 insurance premium for DOL enrollees was
           $337,532. The premium was charged, as a direct cost, to
           the DOL grant although the insurance also covered NCSC
           employees who worked on non-Federal projects. The
           premium was considerably more than that paid by other
           SCSEP national sponsors for comparable insurance. We,
           therefore, question the premiums that NCSC/NSCERC

                                                   v
                                                                b.   The FY 1996 insurance
                                                                     premium for EPA
                                                                     enrollees was $202,346.
                                                                     In addition to the
                                                                     p r o c u r e m e n t
                                                                     weaknesses noted
                                                                     above, the premium was
                                                                     charged to the NSCERC
                                                                     indirect cost pool for
                                                                     allocation           to
                                                                     NCSC/NSCERC
                                                                     projects, including the
                                                                     DOL grant.          We
                                                                     “reclassified” the net
                                                                     premium from the
                                                                     NSCERC indirect cost
                                                                     pool to EPA direct costs
                                                                     and adjusted the
                                                                     “allowable” premium to
                                                                     $30,000 (net increase)
                                                                     based on the premiums
                                                                     paid by other EPA
   237,532                                                           grantees for similar
                                                                     insurance. (Finding No.
                                                                     3b.) (Also see Finding
                                                                     No. 8b.)




                                                                172,346
                                                                (EPA)



                                                          FINDING

       FY 1996 Costs   Direct Costs        I n d i r e c t 4.    PENSION PLAN COSTS
Cost Pool
                                                                 NCSC/NSCERC made FY
                                                                 1996 year-end adjustments to

                                      vi
           reduce the amount of pension plan costs charged to its
           programs. However, the adjustments did not include any
           reductions to the DOL grant and to NCSC/NSCERC
           indirect costs for the excessive costs that were charged
           during the year. The adjustments to the DOL grant and to
           the NCSC/NSCERC indirect cost pool were $103,545 and
           ($26,081), respectively.
      Other year-end adjustments to correct initial pension plan cost         $103,545        ($26,081)
      charges involved increases to NCSC programs ($77,737) and
      decreases to NSCERC programs ($273). Net increase equals
      $77,464. (Finding No. 4.)

                                                                              (77,464)

5. FRINGE BENEFIT COSTS
and
6. Fringe benefit costs of NCSC and NSCERC employees who
    work on Federal grants are charged to DOL and EPA by
    intercompany billings. The amounts charged are based on
    estimates and not on “actual” costs. At the end of FY 1996, the
    amounts charged exceeded actual fringe benefit costs by
    $108,872 for the DOL grant and $222,993 for the EPA grant.                108,872 (DOL)
    Year-end adjustments should be made on the basis of actual                222,993 (EPA)
    costs. (Finding Nos. 5 and 6.)

7.   HOUSING SAFETY PROGRAM

     Costs incurred for the NCSC/NSCERC housing safety program
     were incorrectly charged to the indirect cost pool instead of being
     charged as a direct cost to this non-Federal program.
      (Finding No. 7.)                                                       102,384          (102,384)

8. INDIRECT G&A COSTS

     a.    Salary and fringe benefits of NSCERC employees
           managing EPA programs were charged to the indirect cost            235,768         (235,768)
           pool instead of being charged as a direct cost to the EPA           (EPA)
           program. (Finding No. 8a.)

     b.    Insurance premiums for third-party general liability               202,346         (202,346)
           insurance were incorrectly charged to the indirect cost pool        (EPA)
           instead of being charged as direct costs to the EPA
           program. (Finding No. 8b.)


                                                                           FINDING

                                                      vii
       FY 1996 Costs                Direct Costs             Indirect          c.    Estimated charges for
Cost Pool                                                                            postage and duplication
                                                                                     services exceeded the
                                                                                     actual costs.         We
                                                                                     reduced the postage and
                                                                                     duplication costs charged
                                                                                     to the indirect cost pool
                                                                                     to recognize the
                                                                                     “overcharges.” (Finding
                                                                                     No. 8c.)

                                                                               d.    NCSC/NSCERC’s
                                                                                     library costs are incurred
                                                                                     in serving NCSC
                                                                                     members and not
                                                                                     DOL/EPA enrollees.
                                                                                     We reclassified the
                                                                                     library salaries from the
                                                                                     indirect cost pool to
                                                                                     direct costs of
                                                                                     membership services.
                                                                                     (Finding No. 8d.)



                                                                         B.         INDIRECT COST
                        ($13,168)
                                                                        FINDING



      $79,727           (79,727)




Adjustments to the Indirect Cost                     Allocation Base


9.    INDIRECT COST ALLOCATION BASE                                           indirect costs to its programs.
                                                                              The proposed cost allocation
      NCSC/NSCERC submitted its final indirect cost proposal to               base includes $9.3 million,
      DOL using a “modified total direct cost base”1 to allocate              which is 15 percent of the total
                                                                              costs computed and reported
                                                                              by its 148 DOL subrecipients.
       1
        The use of this allocation base has not been approved by the          The basis for including 15
DOL     Office of Cost Determination.

                                                      viii
   percent was not explained by NCSC/NSCERC officials.
   Subrecipient operations are independently managed at the
   local level. NCSC/NSCERC’s indirect costs benefit and
   support its in-house, headquarters program and activities.
   Administrative support for enrollee activities is provided by
   and should be charged as indirect costs of the subrecipients
   and not of NCSC/NSCERC. Accordingly, we utilized a
   “modified total in-house direct cost base” to allocate
   NCSC/NSCERC indirect costs. This results in appropriately
   lower indirect costs being charged to the DOL grant and
   corresponding increases to NCSC/NSCERC’s other activities.
   The total adjustments to the allocation base amount to $8.4
   million ($6,785,263 in adjustments for subrecipient costs and
   $1,643,516 for questioned direct costs) as shown in Exhibit A.
   (Finding No. 9.)




           $8,428,779


C. INDIRECT COSTS




                                               ix
NCSC/NSCERC’s FY 1996 indirect cost submission to DOL included a modified total direct cost
allocation base of $24.4 million and an indirect cost pool of $4.1 million. The amounts we question and
the effect on the indirect cost rate are shown below and in Exhibit C.


                                           Proposed by           Questioned      Recommended
                                        NCSC/NSCERC              by Auditors       by Auditors
          Cost Allocation Base               $24,386,630         $8,126,429        $16,260,201

          Indirect Cost Pool                   $4,136,840          $607,312         $3,529,528

          Indirect Cost Rate                       16.96%                               21.71%

DOL Grant

Our audit also resulted in questioning $1.1 million of indirect costs proposed for the DOL grant, as shown
in the following table and in Exhibit A.


                                          Proposed by           Questioned       Recommended
                                       NCSC/NSCERC              by Auditors        by Auditors

          Cost Allocation Base              $14,634,601         $8,428,779         $6,205,822

          Indirect Costs                      $2,482,028        $1,134,744         $1,347,284



 D. COST AVOIDANCE ISSUES AND
         POTENTIAL SAVINGS



FINDING                                                                       Estimated Annual Savings

10.    FISCAL MONITORING OF SUBRECIPIENTS

      NCSC makes onsite fiscal reviews of DOL grant subrecipients
      twice a year. Each review costs about $4,090 and, based on a
      sample of the audit reports, questioned costs average $234 per
      audit. Reducing the number of audits to one a year (with
      additional reviews performed on a risk-based approach) could
      result in substantial savings without measurably adding to the
      accountability risks of the grant program. (Finding No. 10.)                  $ 400,000



                                                    x
FINDING                                                               Estimated Annual Savings

11. PROGRAM MONITORING OF SUBRECIPIENTS

   NCSC performs two onsite field program reviews and one desk
   review of each subrecipient each year. The findings and
   recommendations in 29 reports for FY 1996 showed that this
   level of monitoring may be excessive. Reducing the number of
   onsite reviews to one a year (with additional reviews performed
   on a risk-based approach) could result in savings of about
   $500,000 per year. (Finding No. 11.)                                         $500,000


AUDITEE’S RESPONSE

   By letter dated June 11, 1999, the Executive Director of the National Senior Citizens
   Education and Research Center (NSCERC), provided “preliminary” written comments on
   the draft report.

   The Executive Director stated that the majority of the auditors’ findings in this FY 1996
   report are “repeat findings” from the prior audit report (FYs 1993, 1994, and 1995). In
   this regard, the Executive Officer said NSCERC’s comments will not respond to the repeat
   findings and NCSC’s response to the prior findings is currently being reviewed by the
   Department of Labor Grant Officer as part of the audit resolution process.

   Generally speaking, NSCERC disagrees with most of the audit findings.

   Finding No. 1 -- With respect to the “refunds” that NCSC/NSCERC has received from the
   Monumental Life Insurance Company (Monumental) for the enrollee hospital indemnity
   plan (HIP), NSCERC contends that the auditors have improperly mischaracterized royalty
   income as “insurance premium refunds” and that NSCERC has no obligation to the
   Federal Government with respect to this income.

   Finding No. 2 -- On the related subject of the level and handling of administrative fees for
   the HIP, NSCERC contends that in comparison to the duties performed by Seabury & Smith
   (Seabury), the insurance intermediary, NCSC put forth relatively little effort. NSCERC
   further states that NCSC utilized only one staff member as the insurance coordinator, who
   performs this function along with her regular duties. NSCERC states that the
   “administrative fees are not costs claimed for reimbursement under the grant agreements.”




                                                  xi
Finding No. 3 -- With regard to NCSC/NSCERC’s failure to use “effective competitive
solicitation procedures” and negotiate a reasonable price for its third-party general liability
insurance, NSCERC said that it is in compliance with OMB Circular A-110, that

   NCSC had instituted procurement procedures based on this same finding in a prior audit,
   and that the DOL Grant Officer had accepted the corrective action it had taken. Therefore,
   NSCERC disagrees with the auditors’ recommendation that it needs to improve its
   solicitation procedures.

Finding No. 4 -- NSCERC says that the pension plan became a multiple employer plan when
it was transferred from NCSC. That accounting for multiple employer plan requires that
the contribution expense recorded be equal to the actual contribution payment made to the
pension plan. Therefore, NCSC was correct in not adjusting the pension costs.

Findings Nos. 5 and 6 -- NSCERC said that procedures are being implemented to ensure
adjustments are made annually to reconcile fringe benefit costs with actual costs prior to
close-out of the grant. NSCERC said it is revising the rate charged each grant year so the
percentages are more consistent with actual costs.

Finding No. 7 -- NSCERC agreed with our removal of the “Housing Safety” program costs
from the G&A pool and reclassification of these costs as direct costs of the safety program.

Findings Nos. 8 and 9 -- NSCERC agreed with our conclusions on Findings 8a-8c. It
disagrees with the auditors’ conclusions on Findings 8d and 9 on improper classification
and distribution of indirect costs.

Findings Nos. 10 and 11 -- With respect to the excessive fiscal and program monitoring of
subrecipients, NSCERC said that it had made some improvements to reduce the number of
field visits, but added that it is currently reviewing these functions for the purpose of
making additional improvements to more effectively manage the SCSEP. NSCERC further
said that it was attempting to combine fiscal and program monitoring program
responsibilities.

Finally, with regard to the amount of the costs ($2,778,620) questioned by the auditors,
NSCERC stated that for the fiscal year ending June 30, 1996, it had provided $9,006,060
as its non-federal share of the costs of the SCSEP (NSCERC refers to these Federally
required matching costs as “stand-in costs.”) NSCERC, then said that these costs should
be used to “offset” the $2,778,620 in audit questioned direct and indirect costs.




                                              xii
     NSCERC’s “preliminary” comments are included in their entirety in the Appendix. [Note:
     Although the Executive Director said these comments are only “preliminary,” no additional
     or final comments were provided.]

AUDITORS’ COMMENTS

      With regard to the total questioned costs of $2,778,620, NSCERC contends that the amounts it
submitted as “excess” non-Federal costs should be used to “offset” the Federal share costs which NSCERC
claimed for reimbursement, but which was questioned by the auditors. DOL awarded NCSC/NSCERC
a cost-reimbursable grant. The “stand-in” costs (as NSCERC refers to them) are not expenditures made
by NSCERC, but are the amounts that had been computed and reported by the approximately 150 SCSEP
subrecipients as the required non-Federal match. This is further illustrated in NCSC/NSCERC’s budget
instructions to the subrecipients, where it placed the responsibility for all disallowances of non-Federal
contributions on the subrecipients. The offset of NCSC/NSCERC’s Federal share questioned costs by
non-Federal share reported costs would result in NCSC/NSCERC being reimbursed for an amount which
they had not incurred and which they will not incur as a cost to them. All costs incurred by NCSC/
NSCERC have been claimed for reimbursement as Federal share costs. Furthermore, such suggestion
would violate the basic Federal regulations governing allowable costs found in OMB Circular A-122,
because these costs cannot be determined in accordance with generally accepted accounting principles.
Also, OMB Circular A-122, Attachment A, Paragraph 12 Donations, states that the value of donated or
volunteer services, as well as donated goods and space, is not reimbursable either as a direct or indirect
cost.

     In connection with the “repeat findings” in this report, such as those dealing with the improper handling
of HIP insurance “refunds,” NSCERC said that it has provided its comments to these findings in the FYs
1993-1995 report and, therefore, in its view, sees no useful purpose in repeating them. In this regard, we
are presenting, in this report, the additional information needed to effectively respond to NSCERC’s
currently stated position.

     The amount of HIP refunds NSCERC receives each year is not contingent upon or in any way based
on a “marketability enhancement” or any type of “sales benefit” occurring to Monumental which is normally
the basis for “royalty” payments. In NSCERC’s case, the “refunds” are computed recognizing the amount
of the insurance administrative costs, the benefits provided to enrollees, and the amount of claims paid.
Because the “gain” realized each year was from the premiums paid by the DOL grant, NSCERC is required
by its grant provisions and the Federal cost principles to credit the income to the DOL SCSEP grant.

     NCSC/NSCERC elects to call the insurance premium refunds “royalty payments.” Notwithstanding
whether such amounts are called “refunds” or “royalty payments,” the amounts paid to NCSC/NSCERC
by Monumental are a premium reduction that, under existing Federal criteria, must be credited to the DOL
grant from which the premiums were paid.



                                                     xiii
     On the “administrative fees” paid by Monumental and the sharing arrangement between
NCSC/NSCERC and Seabury (Finding No. 2), NCSC/NSCERC does not, in its formal comments,
address the fact that it has not properly credited the DOL grant for the amounts that it has received from
Monumental year after year. Also, on the sharing arrangement between NCSC/NSCERC and Seabury,
which is 4.0 percent and 10.5, respectively, NCSC/NSCERC does not fully recognize the actual level of
effort expended by NCSC/NSCERC, which includes both the solicitation and all the administrative functions
associated with an estimated 9,000 enrollees year after year.

     Also, NCSC/NSCERC does not adequately consider the comments that were made by both Seabury
and NCSC officials which demonstrate that no studies were performed nor were any work-load analyses
conducted (by either party) to ascertain the proper amount of fees to be paid for the inherent administrative
functions. When Seabury and NCSC officials were asked for support or a justification for the 14.5 percent
fee and the related sharing arrangement of 4.0 percent for
NCSC/NSCERC and 10.5 percent for Seabury, the officials said that there was no such analysis or
assessment. They added that the amount paid to Seabury, for example, was simply “the amount that
NCSC/NSCERC had agreed to pay.” Contrary to the statements included in the Executive Director’s
comments, the fees paid to Seabury, as well as all the amounts received by NCSC/NSCERC, are, as we
have reported, amounts that were, in fact, charged to the DOL SCSEP grant. Therefore, they do provide
the basis for the related “cost disallowances” presented in this finding.

      In purchasing third-party general liability insurance (Finding No. 3), NCSC/NSCERC’s failure to use
effective competitive solicitation procedures is well documented and supported by the statements, the
actions, as well as the related correspondence prepared by NCSC/NSCERC. Specifically,
NCSC/NSCERC’s “solicitations for bids” have been marked by an apparent lack of essential details and
pertinent information which could have had a very significant impact on NCSC/NSCERC’s ultimate ability
to receive a competitively based bid. As demonstrated by its related correspondence, NCSC/NSCERC
failed to provide, to potential insurance carriers, important data on the description of the specific services
that the enrollees would generally perform as well as the previous claims experience under the program.
Such notable omissions of key details can hardly be construed as a procurement practice that satisfies the
basic and fundamental requirements and objectives of governing Federal regulations, such as OMB Circular
A-110. The reported corrective action, that was cited by NSCERC, which it states it implemented to satisfy
a FY 1989 audit finding on its inadequate procurement procedures, appears to warrant, at this time, an in-
depth reassessment to ascertain, among other things, if the June 1991 DOL conclusion on
NCSC/NSCERC’s procurement practices as “satisfactory” is valid today.

     Finally, nowhere in the draft audit report have the auditors’ expressed concern over the fact that NCSC
has elected to provide this insurance. More significantly, as the finding details demonstrate, the fundamental
issue is related to inherent weaknesses in NCSC/NSCERC’s procurement practices and procedures. This
is supported by NCSC/NSCERC’s lack of effective competitive action with regard to the information that
was or was not presented to bidders, as well as its failure to obtain a reasonable number of bids from
potential insurance providers.

                                                     xiv
      As previously discussed, the aforementioned findings and related comments deal with the more
significant aspects of the total questioned costs of $2,778,260 in this report on the DOL grant for FY 1996.
With regard to the remaining findings, NSCERC stated it: (1) is implementing procedures to adjust the fringe
benefits to actual each year, (2) intends to revise the proposed indirect cost rate for EPA grant salaries and
insurance, (3) is reducing the postage and duplicating accounts by the reimbursements it receives, and (4)
is attempting to combine the fiscal and program monitoring responsibilities. NSCERC did not agree that:
(1) the pension plan costs required adjustments, (2) the library services costs should be charged to the direct
membership activities, or (3) the indirect cost base should exclude any subrecipient costs. The additional
details and our comments in response to NCSC/NSCERC’s statements for these, and the other findings,
have been incorporated into the individual sections of the report.

     Also, NSCERC’s comments, in their entirety, are presented in the Appendix.

SUBSEQUENT EVENTS

     On July 2, 1999, as part of the DOL/NCSCERC SCSEP Grant Agreement for the new program year
beginning July 1, 1999, certain Special Conditions were included with respect to the Hospital Indemnity
Insurance Plan noted in this audit report (Finding No.1) as follows:

     a. The HIP insurance program for Senior Aides will be phased out as soon as practical, but no later
        than September 30, 1999. Use of DOL grant funds to buy HIP insurance will be similarly limited
        and precluded after program phase-out.

     b. Monumental Life Insurance Company will return to NCSC the positive retention account balances
        related to its HIP and Medical Supplement premiums and NCSC/NSCERC will open an interest
        bearing escrow account in a financial institution and deposit into that account, by no later than
        August 1, 1999, an amount equal to all retention payments and credits as provided in the
        Agreement. All such funds shall remain in the escrow account until settlement or resolution of the
        matters (audit findings) currently in contention with respect to these funds.

     A memorandum from the Director of Finance to the Executive Director dated August 4, 1999 showed
that NCSC/NSCERC had established an escrow account with a value of $2,215,000.

    These special conditions resolve our concerns as noted in Finding No. 12 of our draft report --
Administrative Costs of Federal Grant Programs; therefore, we have removed this finding from the final
report.




                                                     xv
                              INTRODUCTION AND BACKGROUND



     Under contract to the U.S. Department of Labor (DOL), Office of Inspector General (OIG), we
audited the costs incurred by the National Council of Senior Citizens, Inc. (NCSC) and its related
organization, the National Senior Citizens Education and Research Center, Inc. (NSCERC) for services
provided under the DOL Senior Community Service Employment Program (SCSEP) grant ($60.6 million
Federal share) for the Fiscal Year (FY) ended June 30, 1996.

     NCSC/NSCERC’s operations also included administering a similar $7.2 million senior employment
program for the Environmental Protection Agency (EPA). NCSC/NSCERC’s non-Government activities
include serving its members, at a cost of about $5 million a year. NCSC and NSCERC were established
in 1962 as not-for-profit corporations to administer programs and activities for Senior Citizens.

SCSEP

     The Community Service Employment for Older Americans appropriation provides Federal grants to
public and private nonprofit national-level organizations and to State governments. These funds are used
to subsidize part-time work in community service activities for low-income persons aged 55 and over.
National and State sponsors share the funds with 78 percent being allocated to the national sponsors and
22 percent to the State sponsors. In FY 1998, DOL funded 48,000 “positions” with $343,356,000 for
the national sponsors and 13,500 “positions” with $96,844,000 for the State sponsors.

     The national sponsors’ portion of the SCSEP has been managed by nine national nonprofit
organizations and one Federal agency -- the U.S. Forest Service. Local projects are managed under
subcontracts with local organizations, such as agencies for the aging or community groups, and through
local units of the national organizations. The local projects are coordinated with those of other State and
Federal programs serving older Americans to geographically distribute and coordinate the activities and
services.

SCSEP Grant

     The DOL grant awarded to NCSC/NSCERC under the SCSEP for FY 1996 is summarized below.
This grant was initially awarded to NCSC, but management responsibility for the grant activities was
transferred to NSCERC on January 1, 1996, pursuant to a Novation Agreement between NCSC,
NSCERC, and DOL. 2


         2
           This Novation Agreement was the result of Congress’ passage of Section 18 of the Lobbying Disclosure
Act of 1995, which prohibits organizations involved in political activity from receiving Federal grants. NCSC is
recognized under the Internal Revenue Code as a section 501(c)(4) tax exempt corporation, which allows it to
participate in some political activity. NSCERC, on the other hand, qualifies under section 501(c)(3) of the Internal

                                                          1
                                   Grant                   Federal        Non-Federal            Budget
          Grant                    Period                   Share           Share                Amount
 D-5102-5-00-81-55            7/1/95 - 6/30/96        $60,569,504          $6,729,946        $67,299,450

         Under its annual SCSEP grant, NCSC/NSCERC provides subsidized part-time community service
employment and training to about 9,000 enrollees. These individuals are known as “Senior Aides” or
“enrollees.” DOL grants specify the number of Senior Aides that NCSC/NSCERC is authorized each
year. NCSC/NSCERC enters into “agreements” with local governmental agencies or local not-for-profit
organizations. These organizations are known as “subrecipients.” Within their geographically assigned
areas, the subrecipients are responsible for recruiting and enrolling eligible “low income” elderly individuals
(55 years or older) and placing them in employment/training positions at local government offices or “not-
for-profit” community organizations, such as hospitals, schools, and nursing homes. The Senior Aides
(enrollees) work/train at these assigned organizations which are known as “host agencies.” Enrollees
usually work 20 hours a week, are employees of the subrecipients, and are paid by the subrecipients at the
Federal or State minimum wage rate. Enrollees also receive certain fringe benefits, such as FICA, vacation,
and sick leave and hospital indemnity insurance. They are encouraged to seek and obtain unsubsidized
employment as soon as possible so they can leave the program and allow other “needy” individuals to enter.
Host agencies do not pay for enrollee services; they are, however, required to provide enrollees with on-
the-job training to assist them in obtaining unsubsidized employment.

        Subrecipients are reimbursed by NCSC/NSCERC for enrollee salaries, fringe benefits, and other
enrollee costs. The administrative costs computed and reported by the subrecipients are not usually
reimbursed by NCSC/NSCERC, but are expenses that subrecipients claim as “contributions” to satisfy the
non-federal-matching share of grant costs.

        NCSC/NSCERC’s staff of about 60 SCSEP employees make scheduled onsite fiscal and program
reviews at subrecipient locations. The staff is also responsible for the budgeting and accounting functions,
as well as drawing down funds from the U.S. Treasury under a Letter-of-Credit arrangement. Overall
direction and management of the program is performed by NCSC/NSCERC executive-level personnel
whose costs are charged to the DOL grant through an indirect cost allocation plan.

SCSEP Requirements

        The 20 CFR Part 641.405 Limitations on Federal Funds (b)(1) Administration limits the
administrative costs of the SCSEP to 13.5 percent (15.0 percent with DOL approval) of the total allowable
costs chargeable to SCSEP grants. Part 641.405 (b)(2) Enrollee wages and fringe benefits requires that


Revenue Code as a charitable and education organization. As such, NSCERC is not permitted to engage in any
political or lobbying activity.


                                                       2
the amount of Federal funds budgeted for enrollee wages and fringe benefits be no less than 75 percent of
the grant. Part 641.407 Non-Federal share of project costs limits the Department’s share of any project
to 90 percent. Allowable grant costs are determined by OMB Circular A-122, Cost Principles for Non-
Profit Organizations.

Environmental Protection Agency
Senior Environmental Employment (SEE) Program

         NSCERC has performed EPA-Senior Environmental Employment (SEE) Program grant activities
costing about $7.2 million a year since 1984. Under these grants, NSCERC employs about 300 enrollees
55 years of age or older in full-time or part-time positions. The enrollees are assigned to work at EPA
offices, laboratories or other EPA facilities at wage rates of up to $15.00 an hour. They also receive
certain fringe benefits including health insurance. Recruitment, position assignments, terminations, and travel
are managed by “resident” EPA employees. NSCERC functions include maintaining personnel and payroll
records for enrollees, payment of wages and travel expenses and preparation of reimbursement invoices
to EPA. In addition to direct enrollee costs, NSCERC claims a 15 percent “add-on” to the direct costs
for its administrative services. EPA grants are subject to the requirements set forth in OMB Circular A-
122. The enrollees are employees of NSCERC.

NCSC/NSCERC’s Accounting System

          NCSC/NSCERC maintains a separate bank account and a separate set of accounting records
known as “NCSC or NSCERC Senior Aides” for its DOL SCSEP grant activities. Costs applicable to
EPA grants are also separately maintained in the “NSCERC-EPA-grants” accounts. Most financial
transactions (such as cash receipts from the U.S. Treasury and DOL and EPA grant disbursements) are
initially recorded in these accounts. These include payments to subrecipients, costs of training seminars,
consultants, and most other direct costs.

        Some direct cost items (such as employee salaries) and indirect costs applicable to the DOL Senior
Aides and EPA grants as well as to its non-Government programs are initially recorded in NCSC or
NSCERC’s books of account. Costs recorded in these accounts include salaries and fringe benefits for
NCSC or NSCERC employees who are directly engaged in and chargeable to the DOL SCSEP grant.
“Intra company cost billings” are processed to charge the DOL Senior Aides or the EPA grants for these
direct costs and for their allocated share of indirect costs based on the relative benefits received. NCSC
executive personnel and certain support functions (such as rent) are initially recorded in NCSC’s accounts
and then allocated to the benefitting programs.




                                                      3
                             OBJECTIVES AND SCOPE OF AUDIT



        The primary objective of our audit was to determine whether the direct and indirect costs claimed
for reimbursement by NCSC/NSCERC for services performed under its DOL grant during FY 1996
($60.6 million Federal share) were reasonable, allocable, and otherwise allowable in accordance with the
Office of Management and Budget (OMB) Circular A-122, Cost Principles for Non-Profit
Organizations, and the specific provisions of the grant. We did not perform a detailed audit of
NCSC/NSCERC’s non-Federal matching costs, because these were non-reimbursable costs.

        We conducted our audit in accordance with generally accepted auditing standards and the
standards for financial audits contained in the Government Auditing Standards issued by the Comptroller
General of the United States. Because NCSC/NSCERC management is responsible for compliance with
applicable laws and regulations related to its Federal grants, our secondary objective was to determine the
overall adequacy of NCSC/NSCERC internal operating controls and to ascertain its compliance with
Federal laws and regulations.

Scope of Audit

         Our audit included such tests of the NCSC/NSCERC’s accounting records and other auditing
procedures as we deemed necessary under the circumstances after considering: (a) the effectiveness of its
internal controls, and (b) the results of the external audit of NCSC/NSCERC’s financial statements.
Statistical sampling was not used because the audit universe related to most individual accounts or cost
elements was not large enough to make its use practical. Accordingly, we used a combination of risk
analysis as well as random and judgmental sampling to test individual account transactions and cost
allocations. These tests were expanded, as necessary, to provide a firm basis for our conclusions.

        The FY 1996 indirect cost proposal submitted to DOL consolidates certain operating activities and
costs of both NCSC and NSCERC, primarily as a result of the transfer of DOL grant activities from
NCSC to NSCERC pursuant to a Novation Agreement with DOL, effective
January 1, 1996. The scope of our FY 1996 audit included both entities and their consolidated costs to
determine the reasonableness of the proposed indirect costs and rate.




                                                    4
Mr. John J. Getek
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210



                              INDEPENDENT AUDITORS' REPORT




        We audited the direct costs claimed and indirect costs and rates proposed by the National Council
of Senior Citizens, Inc. (NCSC) and the National Senior Citizens Education and Research Center, Inc.
(NSCERC) for the DOL SCSEP grant activities performed during the FY ended
June 30, 1996. The costs claimed for reimbursement ($60.8 million Federal share) and the indirect cost
rate proposed are the responsibility of NCSC/NSCERC. Our responsibility is to perform an audit and
express an opinion on the accuracy of the costs claimed, including the final indirect costs and rate proposed
under the DOL and EPA grants.

        We conducted our audit in accordance with generally accepted auditing standards and standards
applicable to financial audits contained in the Government Auditing Standards issued by the Comptroller
General of the United States. These standards require that we plan and perform the audit to obtain
reasonable assurance about whether the costs claimed are in compliance with the terms and conditions of
NCSC/NSCERC’s DOL SCSEP grant and OMB Circular A-122, Cost Principles for Non-Profit
Organizations, and are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts claimed. An audit also includes assessing the accounting principles used
and the significant estimates made by management, as well as evaluating the overall financial presentation.
NCSC/NSCERC’s financial presentations for FY 1996 and the results of our audit are included as Exhibits
A through D. We believe our audit provides a reasonable basis for our opinion.

        As described in Finding No. 1 - Hospital Indemnity Plan Refunds, and in the accompanying
schedule of questioned costs (Exhibit A), NCSC/NSCERC did not comply with the requirements of OMB
Circular A-122, Attachment A, Subpart A Basic Considerations, paragraph 5.a. regarding Applicable
Credits that are applicable to its DOL SCSEP grant. NCSC/NSCERC had received a substantial
premium “refund” for FY 1996 based on the “favorable claims experience” for its Hospital Indemnity Plan

                                                     5
insurance; however, contrary to the terms of the DOL grant and OMB Circular A-122, NCSC/NSCERC
did not “credit” the refund to the DOL grant, but instead included the amount received as royalty income.
This finding ($948,983 in questioned costs for FY 1996) had been previously reported in OIG Audit
Report No. 18-99-007-07-735, issued on February 3, 1999, in which $3,858,910 was questioned for
FYs 1993-1995. NCSC/NSCERC’s failure to credit the DOL grant has had a direct and material effect
on NCSC/NSCERC’s use of and accounting for DOL SCSEP funds.

      In our opinion, except for the effects of the DOL Grant Officer’s resolution of the costs
proposed by NCSC/NSCERC which we question (as discussed above and in the Findings and
Recommendations section of this report), the Exhibits referred to above present fairly, in all
material respects, the allowable (audit-recommended) Federal share direct and indirect costs of
the DOL SCSEP grant for FY 1996.

        The SCSEP authorizing legislation specifies that the Federal share of any project is limited to 90
percent. As such, the total grant budget consisted of a Federal share (reimbursable costs) of $60.6 million
(which is the subject of this audit report) and the incurrence of $6.7 million of non-Federal share costs as
part of grant performance. The non-Federal share costs were computed and reported by NSCERC’s
subrecipients and their host agencies, who agreed that all such costs were to be reported on a
nonreimbursable basis to NSCERC.

        In accordance with the Government Auditing Standards, we have also issued our report, dated
June 18, 1998, on our consideration of NCSC/NSCERC’s internal control over financial reporting of grant
costs claimed for reimbursement and on our tests of its compliance with certain provisions of laws,
regulations, and Federal grants.

         This report is intended solely for the information and use of the U.S. Department of Labor, the
Environmental Protection Agency, and NCSC/NSCERC and is not intended to be used by anyone else.
This restriction, however, is not intended to limit the distribution of this report which, when issued, becomes
a matter of public record.

         We held an entrance conference with NCSC/NSCERC officials on January 5, 1998. The last day
of our onsite field work was June 18, 1998. On September 17, 1998, we held an exit conference with
most of the same officials. On June 11, 1999, NSCERC provided written comments on a draft of this
report, which have been considered in finalizing this report. This report is dated June 18, 1998, which was
the last day of our onsite audit field work.


Myint & Buntua, CPAs
Falls Church, Virginia
June 18, 1998



                                                      6
Mr. John J. Getek
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210



                              INDEPENDENT AUDITORS' REPORT
                             ON INTERNAL CONTROL STRUCTURE




        We audited the costs claimed and the indirect costs and rates proposed by the National Council
of Senior Citizens, Inc. (NCSC) and the National Senior Citizens Education and Research Center, Inc.
(NSCERC) under its DOL grant for FY 1996. We issued our report thereon, dated
June 18, 1998. We included in our audit the costs incurred/charged for all NCSC/NSCERC activities,
including administering grants for the Environmental Protection Agency.

        We conducted our audit in accordance with generally accepted auditing standards and the
Government Auditing Standards issued by the Comptroller General of the United States. These
standards require that we plan and perform an audit to obtain reasonable assurance about whether the costs
claimed for reimbursement are free of material misstatement and whether NCSC/NSCERC complied with
applicable laws and regulations.

         NCSC/NSCERC management is responsible for establishing and maintaining internal controls. In
fulfilling this responsibility, estimates and judgments by management are required to help assess the
expected benefits and related costs of internal control structure policies and procedures. The objectives
of internal controls are to provide management with reasonable, but not absolute, assurance that assets are
safeguarded against loss from unauthorized use or disposition, and that transactions are executed in
accordance with management's authorization and recorded properly to permit the preparation of financial
reports in accordance with the terms and conditions of the grant and OMB Circular A-122. Because of
inherent limitations in any internal control structure, errors or irregularities may nevertheless occur and not
be detected. Also, projection of an evaluation of the internal controls to future periods is subject to the risk
that procedures may become inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.



                                                       7
       For NCSC/NSCERC internal control over financial reporting of Federal grant costs, we obtained
an understanding of the relevant policies and procedures and whether they had been placed in operation.
We also assessed control risk.

         In planning and performing our audit of the costs incurred for FY 1996 (including the final indirect
costs and rate proposed by NCSC/NSCERC), we considered NCSC/NSCERC's internal controls over
financial reporting. By doing so, we were able to formulate auditing procedures that allowed us to express
an opinion on the costs claimed, without providing assurances concerning the internal controls themselves.
However, we noted certain matters involving the internal controls over financial reporting and its operation
that we consider to be reportable conditions. Reportable conditions involve matters coming to our attention
relating to significant deficiencies in the design or operation of the internal controls over financial reporting
(costs claimed, including final indirect costs and rate proposed) that, in our judgment, could adversely
affect NCSC/NSCERC’s ability to record, process, summarize and report financial data consistent with
the assertions of management in the financial reports submitted to U.S. Department of Labor. Reportable
conditions are described in the Findings and Recommendations section of this report.

         A material weakness is a reportable condition in which the design or operation of one or more of
the control components does not reduce to a relatively low level the risk that errors or irregularities, in
amounts that would be material in relation to the costs claimed and final indirect costs and rate proposed,
may occur and not be detected within a timely period by employees in the normal course of performing
their assigned functions. Our consideration of the internal control structure would not necessarily disclose
all matters in the internal control structure that might be material weaknesses under standards established
by the American Institute of Certified Public Accountants.

       As discussed in the Findings and Recommendations section of this report, and in our
Independent Auditors’ Report, we identified a reportable condition relating to accounting for
Hospital Indemnity Plan Refunds (as described in Finding No. 1) as a MATERIAL WEAKNESS.

         This report is intended solely for the information and use of the U.S. Department of Labor, the
Environmental Protection Agency, and NCSC/NSCERC and is not intended to be used by anyone else.
This restriction, however, is not intended to limit the distribution of this report which, when issued, becomes
a matter of public record.

        On January 5, 1998, we held an entrance conference with NCSC/NSCERC officials. The last day
of our onsite field work was June 18, 1998. On September 17, 1998, we held an exit conference with
most of these same officials. On June 11, 1999, NSCERC provided written comments on a draft of this
report, which have been considered in finalizing this report. This report is dated
June 18, 1998, which was the last day of our onsite audit field work.


Myint & Buntua, CPAs
Falls Church, Virginia
June 18, 1998


                                                       8
Mr. John J. Getek
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210



                        INDEPENDENT AUDITORS' REPORT ON
                      COMPLIANCE WITH LAWS AND REGULATIONS




        We audited the costs claimed and the indirect costs and rates proposed by the National Council
of Senior Citizens, Inc. (NCSC) and the National Senior Citizens Education and Research Center, Inc.
(NSCERC) under its DOL grant for FY 1996. We issued our report thereon dated
June 18, 1998. We included in our audit the costs incurred/charged for all NCSC/NSCERC activities,
including administering grants for the Environmental Protection Agency.

        We conducted our audit in accordance with generally accepted auditing standards and the
Government Auditing Standards issued by the Comptroller General of the United States. These
standards require that we plan and perform the audit to obtain reasonable assurance about whether the
financial reports (costs claimed, including the final indirect costs and rate proposed) are free of material
misstatement. As part of obtaining reasonable assurance about whether NCSC/NSCERC’s financial
reports submitted to the U.S. Department of Labor are free of material misstatement, we performed tests
of NCSC/NSCERC’s compliance with the terms and conditions of its DOL SCSEP grant and OMB
Circular A-122, Cost Principles for Non-Profit Organizations, noncompliance with which could have
a direct and material effect on the costs claimed, including the final indirect costs and rate proposed.
However, providing an opinion on compliance with those provisions was not an objective of our audit and,
accordingly, we do not express such an opinion.

        As described in Finding No. 1 - Hospital Indemnity Plan Refunds, and in the accompanying
schedule of questioned costs (Exhibit A), NCSC/NSCERC did not comply with the requirements of OMB
Circular A-122, Attachment A, Subpart A, Basic Considerations, paragraph 5.a. regarding Applicable
Credits that are applicable to its DOL SCSEP grant. NCSC/NSCERC had received a substantial

                                                     9
premium “refund” for FY 1996 based on the “favorable claims experience” for its Hospital Indemnity Plan
insurance; however, contrary to the terms of the DOL grant and OMB




                                                  10
Circular A-122, NCSC/NSCERC did not “credit” the refund to the DOL grant, but instead included the
amount received as royalty income. This is a REPEAT FINDING. This finding ($948,983 in questioned
costs for FY 1996) had been previously reported in OIG Audit Report No. 18-99-007-07-735, issued
on February 3, 1999, in which $3,858,910 was questioned for FYs 1993-1995.

         Furthermore, the fact that the Hospital Indemnity Plan insurance premiums year-after-year were
significantly higher than the real cost of the insurance, resulting in substantial premium refunds, the excess
portion of the premiums (i.e., the amounts by which the premiums should have been reduced to eliminate
the substantial premium refunds) represents an unnecessary and unreasonable cost.


      As discussed in the Findings and Recommendations section of this report, and in our
 Independent Auditors’ Report, we identified a reportable condition relating to accounting for
 Hospital Indemnity Plan Refunds (as described in Finding No. 1) as a MATERIAL
 WEAKNESS.

       This report is intended for the information and use of the U.S. Department of Labor, the
Environmental Protection Agency, and NCSC/NSCERC management and is not intended to be used
by anyone else. This restriction is not intended to limit the distribution of this report which, when issued,
becomes a matter of public record.

         We held an entrance conference with NCSC/NSCERC officials on January 5, 1998. The last day
of our onsite field work was June 18, 1998. On September 17, 1998, we held an exit conference with
most of the same officials. On June 11, 1999, NSCERC provided written comments on a draft of this
report, which have been considered in finalizing this report. This report is dated June 18, 1998, which was
the last day of our onsite audit field work.




Myint & Buntua, CPAs
Falls Church, Virginia
June 18, 1998




                                                     11
FINDINGS AND RECOMMENDATIONS




             12
                            FINDINGS AND RECOMMENDATIONS



 Finding No. 1 - Hospital Indemnity Insurance Plan Refund



         NCSC/NSCERC did not reduce the FY 1996 costs ($2,160,473) charged to the DOL Senior
Aides Program for enrollee Hospital Indemnity Plan (HIP) insurance by the premium refund received from
its insurance company ($948,983). The premium refund for the period August 1, 1995 to
July 31, 1996, as computed by the insurance company and shown in the financial statement, is presented
on Schedule No. 1 on page 18. The failure of NCSC/NSCERC to credit the DOL Senior Aides program
for HIP premium refunds was noted in our prior audit report for FYs 1993, 1994, and 19953 and totaled
$3.8 million for the three fiscal years, plus imputed interest lost (not earned) by the Federal Government
from the time the funds became available to NCSC/NSCERC until DOL is reimbursed for these amounts.

Background

        NCSC provides HIP insurance to its enrollees at no cost to them. The initial agreement between
the Monumental Life Insurance Co. (Monumental) and NCSC, for determining the HIP amount of premium
“refunds,” was effective October 1, 1992. About 70 percent of NCSC’s enrollees participate in the
plan. The other enrollees do not participate because they may not benefit from the plan. These include
Senior Aides who can use Veterans Hospitals or others who are covered by Medicaid or supplemental
health insurance. The current monthly premium for each enrollee is $26.66. In FY 1996,
NCSC/NSCERC charged premiums of more than $2.0 million directly to the DOL grant.

Insurance Agreement

        The insurance agreement between NCSC and Monumental, dated November 30, 1992, describes
the provisions and conditions of the insurance plan, as well as the duties of the parties involved in
underwriting, marketing, and administering the program. Section V of this agreement, entitled
“Compensation,” is included as Attachment A (see pages 19 to 21). Article 2 of Section V states that
Monumental will prepare and present to NCSC a “Retention Accounting Statement” each policy year
(August 1 to July 31) together with any “Premium Refunds.” The basis for the refund is described in Article
3 of the agreement. From the premiums paid, Monumental deducts the claims paid, a “claim reserve”
amount, certain expenses, and fees for administrative costs. This computation results in an “Aggregate
Balance” which, if “positive,” is the amount that is to be returned to NCSC as a “refund.”
Operating Cost Data


        3
         DOL/OIG Audit Report No. 18-99-007-07-735, dated February 3, 1999.

                                                    13
       HIP operating costs and expenses reported by Monumental pursuant to Section V of the
agreement, are presented in Schedule No. 1 (see page 18) for the 12-month period ended July 31, 1996.
The “positive” or favorable balance ($948,983) represents the “Aggregate Balance” and
the amount that will be returned to NCSC as a refund.

Applicable Credits

       NCSC improperly recorded the “refund amounts” it received as revenue income instead
of an offset credit to the DOL Senior Aides program costs.

         In this regard, OMB Circular A-122, Attachment A, Subpart A Basic Considerations, paragraph
5.a. states:

        “5. Applicable Credits
               a. The term applicable credits refers to those receipts, or reductions of
        expenditures which operate to offset or reduce expense items that are allocable to
        awards as direct or indirect costs. Typical examples of such transactions are: . . .
        insurance refunds. . . . To the extent such credits accruing or received by the
        organization relate to allowable cost they shall be credited to the Government either
        as a cost reduction or cash refund as appropriate.” (Underscoring added.)

Refunds

        In a subsequent agreement between NCSC and Monumental, effective January 1, 1994, payments
that were reported as “Premium Refunds” (under the prior agreement) were reclassified as “royalty fees
paid to NCSC solely for the use of its name and logo in solicitation of insurance.” No changes,
however, were made in either the method of computing the amount of the “refund” or in the nature of the
refund. Further, the reclassification (from a “refund” to a “royalty fee”) did not in any way affect the basis
upon which the amounts were determined, nor did it change the fact that the amounts refunded to NCSC
are based upon NCSC’s “claims experience.”

       Whether deemed a “refund” or a “royalty fee,” the payments should have been
recognized as an appropriate reduction, or an offset “credit,” to the premiums that NCSC paid
to Monumental and which NCSC had charged directly to the DOL SCSEP grant.

        In discussions with Monumental we were informed that, contrary to the insurance agreement,
arrangements had been made with NCSC that the refundable amounts could be retained by Monumental
and paid to NCSC/NSCERC upon request. In this regard, we noted that Monumental’s payments to
NCSC/NSCERC during FY 1996 were $850,000. However, instead of “crediting” the amounts received
to the DOL Senior Aides Program, NCSC “credited” membership program income.

                                                     14
Unreasonable Costs

         Because NCSC received substantial HIP premium refunds year after year, not only during the audit
period, but also for the years immediately preceding it, its premiums were significantly higher than the real
cost of the insurance. The HIP payments were calculated by deducting the Senior Aides’ insurance claims
and the insurance company’s expenses and profit margin from the premiums. The high yearly returns were
not diminished despite the fact that the Senior Aides’ insurance benefits increased, over time without any
increase in premiums. NCSC did not seek to reduce the premiums and, in fact, rejected Monumental’s
offer to do so. The excess portion of these premiums (i.e., the amount by which the premiums should have
been reduced to eliminate the payments to NCSC) represents an unnecessary and unreasonable cost and
is unallowable.

OMB Circular A-122, Attachment A, Subpart A. Basic Considerations, paragraph 3 states:

        “3. Reasonable Costs
        A cost is reasonable if, in its nature or amount, it does not exceed that which would
        be incurred by a prudent person under the circumstances prevailing at the time the
        decision was made to incur the costs. The question of the reasonableness of specific
        costs must be scrutinized with particular care in connection with organizations or
        separate divisions thereof which receive the preponderance of their support from
        awards made by Federal agencies. In determining the reasonableness of a given cost,
        consideration shall be given to:

        a. Whether the cost is of a type generally recognized as ordinary and necessary for
           the operation of the organization or the performance of the award.
        b. . . .
        c. Whether the individuals concerned acted with prudence in the circumstances,
           considering their responsibilities to the organization, its members, employees, and
           clients, the public at large, and the Federal Government.” (Underscoring added.)

        NCSC did not act with prudence when it failed to reduce the amount of the insurance premiums
        paid over and above that necessary to eliminate the large premium refunds. As such, the excess
        premiums paid were unreasonable costs that should not have been incurred.

AUDITEE’S RESPONSE

        NSCERC said that we have “improperly mischaracterized” NCSC royalty income
        as “insurance premium refunds.” Continuing, NSCERC said that neither NCSC nor
        NSCERC has any obligation to the Federal Government with respect to NCSC’s
        royalty income that it received from the Monumental Life Insurance Company



                                                    15
        pursuant to the agreement between Monumental and NCSC nor with respect to any
        program income earned “after the close of the project period.”

        NSCERC said that USDOL and previous OIG-sanctioned auditors authorized and
        approved the HIP for many years. NSCERC further said that the OIG-sanctioned
        auditors reviewed and approved the treatment of NCSC’s “royalties” and financial
        statement reporting consistently since 1988.

        NSCERC also pointed out that, in their opinion, we have no basis for contending
        that the HIP premiums were “overcharges” to the DOL grant. In this regard,
        NSCERC referred to an Ernst & Young study that cited the NCSC [premium] rate
        as the absolute lowest and averaged a very favorable 69 percent below the average
        observation.

        Concluding, NSCERC said NCSC has consistently reported the Monumental
        payments as royalty income on its tax returns and its financial statements.

AUDITORS’ COMMENTS

       The governing Federal criteria is clearly stated in OMB Circular, Attachment A, which specifically
mentions, as a typical example of an applicable credit, insurance refunds.

         In the initial agreement between NCSC and Monumental (1992), all payments to NCSC from
Monumental were classified as Premium Refunds. In 1994, the agreement was modified to change these
payments from a refund to a royalty. However, simply changing the name of these amounts from “refunds”
to “royalty fees” does not alter, in any way, the fundamental nature of the payments or the basis upon which
they are determined. An analysis of the basis upon which the payments are computed clearly serves to
dispel NSCERC’s contention that “refunds of premiums” are “royalty payments.” The amounts so
computed by Monumental, under its existing agreement with NCSC/NSCERC (and as they are supported
by their financial statements), show that the “premium refund” is (and always has been) based upon the
amount of claims paid, the level of the administrative fees, and the establishment (need for) of a claims
reserve. All of these amounts are deducted from the total amount of the premium paid to Monumental by
NSCERC. Neither Monumental, nor NCSC/NSCERC, has demonstrated that the “premium refund” now
suggested to be called a “royalty” is based upon the results of any type of “marketing enhancement” and/or
related “sales benefits” to Monumental for the “use of NCSC’s name or logo.” In addition, if the HIP
program has claims and related expenses in excess of the amount of the premiums paid by
NCSC/NSCERC, then NCSC/NSCERC would not receive any payment.

       It should also be noted that NCSC/NSCERC, in its prior comments, said they did not concur with
our finding on the need to credit DOL for these refunds because the finding, according to
NCSC/NSCERC, was based on NCSC making a “retroactive adjustment.” However, in the case of the

                                                    16
successor grantee (who at that time was to be NSCERC), NCSC said that it is willing to “renegotiate” or
to “revise” its grants and its contracts, in accordance with any subsequent suggestions or directions from
the Department of Labor. In connection with this report, NCSC/NSCERC now has reversed its position
and instead elected to claim that it does not need to make any adjustments for the refund payments, not
because they constitute a “retroactive” adjustment, but because they are now to be classified as “royalty
payments.”

        NCSC/NSCERC has also introduced an Ernst & Young study that states that the NCSC
premiums are extremely low and very favorable. Using this data, NSCERC said that we have no basis to
contend that the HIP premiums were “overcharges.” It should be noted that no where in the report have
we said that the premiums (in and of themselves) represented an “overcharge.” A careful reading of the
detailed supporting evidence presented by the auditors (in both this and in the prior report) shows that the
“premium refund amount,” as it is computed by Monumental and paid to NCSC/NSCERC, is the primary
issue. Where, year after year, Monumental is returning over 50 percent of the premiums to the payee
(NCSC/NSCERC), there is likely a basis for some type of reduction to be made in the initial premiums.
In most cases like this, the payee would welcome the opportunity to reduce the annual premiums.
NCSC/NSCERC was informed by an actuary that, based upon the claims experience and the associated
related costs, the insurance benefits could be increased and/or the premiums reduced. However,
NCSC/NSCERC, contrary to normal business practices, preferred to keep the premium at the same level
which had been established at the inception of the program. Accordingly, the premium refunds continued
to be paid to NCSC/NSCERC at about a 50 percent level and NCSC/NSCERC then used such refunded
amounts for nongrant purposes.

        In our opinion, the amounts paid to NCSC/NSCERC each year are a “refund” of premiums, and
do not meet the test of a “royalty fee.” As such, and in accordance with applicable governing Federal
regulations, the “refunds of excess premiums paid” should be “credited” to the Federal grant.

         As to USDOL approving the HIP, we have not questioned NCSC’s right to provide this insurance
to the Senior Aides. Our concern is with the proper recording of the cost of the benefit and the premium
refunds received from the insurance company. NCSC did not draw down on these funds until November
1993. Therefore, any prior audits performed by the OIG would not have revealed how NCSC accounted
for the refunds. Our first audit after that date covered fiscal years 1993 - 1995. The auditors reviewing
that period promptly questioned NCSC’s treatment of the premium refunds as NCSC income.




                                                    17
RECOMMENDATIONS

1.   We recommend that the DOL Grant Officer:

    a. Reduce NCSC/NSCERC’s FY 1996 direct DOL SCSEP grant costs by $948,983, to
recognize the insurance premium “refund” due NCSC from Monumental Life Insurance
Company for its hospital indemnity plan insurance, but which NCSC/NSCERC did not, as
required by Federal regulations, “credit” to the DOL SCSEP grant.

    b. Require that NCSC/NSCERC pay to DOL the amount of imputed interest that the
Federal Government lost (not earned) for the period that NCSC/NSCERC had access to the
$948,983.

     c. Require that NCSC (NSCERC, as the successor grantee) credit all future “refunds”




                                           18
                                                                                      Schedule No. 1
                            National Council of Senior Citizens
                   Monumental Life and Life Investors Insurance Companies
                              August 1, 1995 to July 31, 1996


 Description                                                  Amount

 Collected Earned Premium                                    $2,307,931
 Prior Period Adjustments                                        22,167
 Estimated Earned Due and Unpaid                                200,084
     Total Retention Premium                                                   $2,530,182

 Beginning Claim Reserve                                     $ 280,928
 Ending Claim Reserve                                          319,173
 Change in Claim Reserves                                       38,245
 Paid Claims or Ultimate Runoff                                810,326
 Paid Claims Prior Period Adjustments                           (1,125)
     Less: Total Claims or Runoff                                                 847,446

 Administrative Fees                                          $ 366,876
 Charged/Pending Marketing Expenses                                   0
 Premium Taxes                                                   63,255
 Company Retention                                              303,622
    Less: Total Charges                                                           733,753

Gain or (Loss) for the Period                                                  $ 948,983

( )Denotes decrease

NOTE: The amount shown for FY 1996 ($948,983) as “Gain for the Period” is due to the Government as an
overall credit applicable to the DOL grant. Premium refunds payable to NCSC may be subject to temporary
reductions for contingency reserves.




                                                  18
SOURCE: MONUMENTAL LIFE INSURANCE CO.




                                 19
                                                                                  Attachment A
                                                                                    Page 1 of 3

                ABSTRACT OF NCSC INSURANCE PLAN AGREEMENT
                             Hospital Indemnity Plan
                              (November 30, 1992)


Section V: Compensation

1. For purposes of this Agreement and the determination of the Retention Accounting, the
   following terms shall apply:

   a. Retention Accounting Year -- “Retention Accounting Year” is defined as a period of twelve
      (12) consecutive months commencing on August 1 of each year this Agreement remains in
      force and each succeeding 12 month period; with the exception that for the Policy Year
      beginning in 1992, the Policy Year shall commence on October 1, 1992 and end on July 31,
      1993.

   b. Anniversary Date -- “Anniversary Date” is defined as the first day of any Retention
      Accounting Year.

   c. Earned Premiums -- “Earned Premiums” are defined as the premium earned during the
      Retention Accounting Year for the coverages provided by Insurer.

   d. Claims -- “Claims” are defined as claims paid during the Retention Accounting Year, plus
      Claim Reserves and liabilities at the end of the prior Retention Accounting Year, as
      determined by Insurer and as stated in the year-end accounting for the Policies governed by
      the terms of this Agreement. Liabilities as determined within this section may result from
      either a claim payment, settlement of a claim, or the resulting payment of a suit and costs
      thereto.

   e. Claim Reserve -- “Claim Reserve” is defined as a reasonable claim reserve established and
      held by Insurer to provide for future claim payments covering claims incurred prior to the
      Anniversary Date of each Retention Accounting Year, for claims incurred and not reported
      to Insurer until after the Anniversary Date of each Retention Accounting Year. Such
      reasonable reserve shall be established by Insurer and will be maintained at the level
      determined necessary for the coverages governed by the terms of this Agreement, and will
      be subject to review by NCSC and its actuaries.




                                              20
f. Advertising Production and Dissemination Expenses -- “Advertising Production and
   Dissemination Expenses” is defined as the sum of all actual marketing expenditures incurred
   in connection with the solicitation of the insurance programs, including typesetting and




                                           21
                                                                                    Attachment A
                                                                                      Page 2 of 3

       mechanical work, printing and transportation of promotional materials to place of
       dissemination, data processing services, mailhouse services and postage. No such expenses
       may be incurred without the prior written approval by Insurer and NCSC jointly.

   g. Retention -- “Retention” is defined as the sum due Insurer which is made up of the following
      for the Policies for each Retention Accounting Year: 12% of the first $6,000,000.00 of
      Earned Premium each Policy Period, plus 11.5% of all Earned Premium in excess of
      $6,000,000.00 each Policy Period, plus Advertising Production and Dissemination Expenses,
      plus 2.5% state premium taxes paid or payable, plus 14.5% administrative fees paid to
      NCSC.

   h. Contingency Reserve -- “Contingency Reserve” is defined as an experience stabilization
      reserve established by Insurer from Underwriting Results (as further described in Section 3
      below) and held by Insurer. Such reserve shall be considered fully established when it equals
      12.5% of Premiums for the last completed Retention Accounting Year up to a maximum of
      $5,000,000.00 in Premiums and 5% for Premiums in excess thereof.

   [Auditor’s Note: The NCSC Insurance Plan Agreement does not have a subsection i.]

   j. Contingency Reserve Interest Credit -- “Contingency Reserve Interest Credit” is defined
      as interest on the Contingency Reserve held at the beginning of each Retention Accounting
      Year. The rate of interest will be that published in Insurer’s latest Annual Statement, as
      derived from the ratio of net investment income to mean assets.

2. Each year, a Retention Accounting will be prepared and presented by Insurer, along with any
   resulting Premium Refund, if one is payable, within 60 days of the end of each Retention
   Accounting Year. In addition, unaudited quarterly Retention Accountings will be provided.

3. The Retention Accounting for each Retention Accounting Year will show:

   a. Calculation of the Underwriting Results for the Retention Accounting Year, in accordance
      with the following formula:

       Earned Premium
       Less Retention
       Less Claims and Claim Reserves
       Equals Underwriting Results for the Retention Accounting Year



                                               22
                                                                                  Attachment A
                                                                                    Page 3 of 3

   b. Calculation of the Aggregate Balance as of the end of the Retention Accounting Year, in
      accordance with the following formula:
      Underwriting Results for the Retention Accounting Year

           Less any Deficit Accumulated at the beginning of the Retention Accounting Year
           Plus any Contingency Reserve at the beginning of the Retention Accounting Year
           Plus any Contingency Reserve Interest Credit for the Retention Accounting Year
           Less any Contingency Reserve at the end of the Retention Accounting Year
           Equals Aggregate Balance

4. To the extent that the Retention Accounting for a Retention Accounting Year results in a
   positive Aggregate Balance, that balance will be returned to NCSC as a Refund.

5. To the extent that the Retention Accounting for a Retention Accounting Year results in a
   negative Aggregate Balance, that balance will be called the Deficit Accumulated and will be
   included in the succeeding Retention Accounting Year calculation of the Aggregate Balance.

6. For the purpose of this Agreement and the determination of the Retention Accounting, all
   references to dollar amounts for Earned Premiums, Claims, State Premium Taxes, Claim
   Reserves, Promotional Expense Charges, Contingency Reserves and Retentions shall refer to
   the aggregate sum of such amounts under all Policies issued by Insurer for the benefit of NCSC
   members as set forth in Exhibit A.

7. It is understood that nothing contained herein shall be construed or interpreted as a
   guarantee of a Refund to NCSC. Whether any Refund will be made shall be determined
   solely by the Retention Accounting Formula as determined hereunder.




                                               23
 Finding No. 2 - Hospital Indemnity Insurance Plan Administrative Fees


         NCSC performs the recruitment, record keeping and most of the administrative services related
to the enrollees participation in the Hospital Indemnity Plan (HIP); Seabury & Smith, Inc. (Seabury) acts
as the Plan Administrator and is responsible for the payment of enrollee claims and certain other related
activities. As compensation for performing these administrative services, the NCSC/Monumental
agreement provides for Monumental to pay an administrative fee (14.5 percent of earned premiums) to be
shared by NCSC and Seabury. The costs incurred by NCSC in performing its assigned HIP administrative
services are charged directly to the DOL Senior Aides grant. However, the administrative fees that it
receives are credited to Membership Promotion Income instead of being used to reduce DOL grant costs,
as required by OMB Circular A-122. Furthermore, based upon the administrative functions that NCSC
performs as compared to those performed by Seabury, we believe that the amount of the fee that NCSC
receives (4.0 percent of the 14.5 percent) is inadequate and inequitable.

HIP Insurance Agreement

        The agreement between NCSC and the Monumental Life Insurance Co. provides:

        “Section III Collection and Remittance of Premiums

                Insurer [Monumental] shall remit to NCSC an amount equal to 14.5 percent
        of earned premium as compensation within thirty (30) days after receipt of gross
        earned premium by Monumental4 from Seabury5. This amount of compensation shall
        be reflected as administrative fees in Section V (1) (g) of this Agreement. In
        consideration for performance of Seabury’s administrative duties and functions,
        NCSC then shall pay to Seabury an amount of compensation to be agreed upon
        between NCSC and Seabury from these funds remitted to NCSC by Monumental.

                It is understood and agreed by and between the parties that any and all
        compensation to Seabury for the performance of its duties hereunder shall be paid
        from those funds designated as full compensation to NCSC under the terms of this
        Insurance Agreement, and it is further understood and agreed that the Insurer shall
        not be liable for any additional compensation to Seabury for the performance of its
        duties hereunder.”



        4
         The Monumental Life Insurance Company is the “underwriter” for the HIP insurance program.

        5
          Seabury & Smith, Inc. (Seabury) is the “intermediary” for the insurance program. Seabury performs certain
functions, such as payments for claims by plan participants.

                                                        24
Administrative Fees

      Based on the report that Monumental sent to NCSC, the total administrative fees paid or payable
to NCSC under the above-mentioned agreement for FY 1996 was $366,876.

        Notwithstanding the agreement provisions discussed above, Seabury withholds the administrative
fee (14.5 percent) from the gross monthly premiums it receives from NCSC. Seabury retains 10.5 percent
of the 14.5 percent as its share and returns 4.0 percent of the fee to NCSC as payment for its services.
The 10.5 percent that Seabury receives is 72 percent of the total fee; the 4.0 percent paid to NCSC is 28
percent of the total administrative fee.

         Both NCSC and Seabury officials said there are no written agreements nor records of the
negotiations between Seabury and NCSC on the establishment of the fee or the allocation of the fee
between Seabury and NCSC. Seabury officials said that 10.5 percent of the fee was the amount that
“NCSC agreed to pay.”

Administrative and Management Services by NCSC and Seabury

        Seabury acts as the “Plan Administrator” and is the “intermediary” between NCSC and
Monumental. NCSC, however, performs most of the administrative and managerial services. For
example, NCSC promotes and solicits enrollee participation, prepares and maintains monthly listings of
enrollees participating (including additions and terminations), computes monthly premiums, makes premium
payments and submits supporting documentation to Seabury to be sent to Monumental. Seabury processes
and pays enrollee claims from funds set aside for this purpose. Seabury also handles inquiries from
enrollees and subrecipients about the insurance plan.

        As we have stated, NCSC performs most of the major administrative functions and duties relating
to the management of the HIP. The functions performed by NCSC for the estimated 7,000 covered
enrollees included: (1) solicitation of new enrollees for HIP insurance; (2) completion of enrollment
applications; (3) maintenance of records and information on each enrollee’s participation; (4) preparation
of monthly premium payments for the enrollees; (5) updating records and information for the estimated
5,000 enrollees who terminate and the 5,000 new enrollees each year; and
(6) maintenance and reporting of grant cost information. Seabury, on the other hand:
(1) maintained an “800 number” to respond to enrollee inquiries; (2) processed and paid about 700
enrollee claims each year; (3) forwarded monthly premium amounts from NCSC to Monumental;
and (4) maintained general liaison functions with Monumental and NCSC.

       Based upon these duties and functions, we believe that a more equitable distribution of
administrative fees should be established between Seabury and NCSC.




                                                   25
26
Sharing Arrangement

          The level and type of services that NCSC performs indicate that 4.0 percent (28 percent of the fee)
that it receives is neither “fair nor reasonable” when compared to the 10.5 percent (72 percent of the fee)
that Seabury receives. Seabury’s level of effort and assigned duties are considerably less labor intensive
than those performed by NCSC. NCSC’s Director of Finance said there were no records or any
documentation to demonstrate or to justify that the fee that NCSC receives is equitable. In response to
our additional inquiries, Seabury officials said that they had no cost data to support or to substantiate the
“reasonableness” of the fee that they receive. Based upon the information we received from Seabury and
NCSC officials, we estimate that NCSC performs about two-thirds of the administrative work applicable
to the program, while Seabury performs about one-third.

Applicable Credits

         The costs incurred by NCSC in performing its assigned HIP administrative services are charged
directly to the DOL Senior Aides grant. However, the fees that it receives for its work are credited to
Membership Promotion Income instead of reducing DOL grant costs, as required by OMB Circular A-
122. In this regard, OMB Circular A-122, Attachment A, Subpart A. Basic Considerations, paragraph
5.a. states:

        “5. Applicable Credits
               a. The term applicable credits refers to those receipts, or reductions of
        expenditures which operate to offset or reduce expense items that are allocable to
        awards as direct or indirect costs. Typical examples of such transactions are: . . .
        insurance refunds. . . . To the extent such credits accruing or received by the
        organization relate to allowable cost they shall be credited to the Government either
        as a cost reduction or cash refund as appropriate.” (Underscoring added.)

Summary

        A summary of the administrative fees paid by Monumental to NCSC and Seabury for FY 1996
is shown in the following table. This table shows the amounts received by NCSC and the amounts that we
consider appropriate for the services rendered by Seabury and NCSC.




                                                     27
        Description                                                                      Amount
        1. Administrative Fees Paid by Monumental                                      $366,876

        2. Amounts Paid to NCSC but not Credited to the DOL Grant                        101,207

        3. Balance Retained by Seabury                                                 $265,669

        4. Estimated Fair Share for Seabury’s Services (1/3 of Line 1)                   122,292

        5. Excess Amount Retained by Seabury                                           $143,377



       NCSC improperly recorded the amounts (totaling $101,207) that it received (Line 2) as
Membership Promotion Income and did not “offset” or “credit” this amount to reduce the direct costs
charged to the DOL SCSEP grant, as required by OMB Circular A-122.

        Establishment/Allocation of Administrative Fees

        Further, we believe that 4.0 percent of the 14.5 percent in administrative fees paid to NCSC is not
equitable based upon NCSC’s level of effort as compared to the amount (10.5 percent) retained by
Seabury for its services. We believe, therefore, that one-third of the total fee to Seabury would be an
equitable reimbursement amount. Accordingly, we question the excess amounts retained by Seabury (Line
5).

AUDITEE’S RESPONSE

        NSCERC states that the Myint &Buntua auditors’ questioned costs and their
        recommendations are based upon an “unsupported and incorrect conclusion” that
        NCSC performs twice as many administrative functions as Seabury & Smith
        (Seabury) in managing the HIP program. NSCERC said in comparing the duties
        performed by Seabury, NCSC puts forth “relatively little effort.” In contrast,
        NSCERC said that Seabury has the full responsibility for communications with and
        the handling of beneficiaries and vendors, dealing with payments for claims, and
        making “coverage” determinations.

        In concluding its remarks, NSCERC states that the “administrative fees” are not
        “costs claimed” for reimbursement under the grant agreements and, as such, they
        cannot be used as the basis for a “cost disallowance.”




                                                    28
AUDITORS’ COMMENTS

         This finding, which was previously presented in the FYs 1993 to 1995 report, is based upon the
fact that NCSC/NSCERC has ignored appropriate governing regulations by failing to “credit” the DOL
grant with the amounts that it receives for its services and for which it makes charges to the DOL grant.
Accordingly, NSCERC’s statement that the “administrative fees” are not “costs claimed” for reimbursement
and should not be disallowed, is not correct. Specifically, the time, the effort, and the related expenses
devoted by NSCERC to assist in the administration of the HIP program are, in fact, charges that
NCSC/NSCERC claims for reimbursement under the DOL grant.

         With regard to the other key aspect of this finding which concerns the individual level of effort
expended by the two parties (Seabury and NCSC), NSCERC now contends -- but without any
substantive or direct evidence -- that Seabury expends the effort to perform the majority of the
administrative functions. Based upon the evidence obtained during the audit, we do not agree. Although
NSCERC states, for example, that Seabury has “full responsibility” for communications with the
beneficiaries (enrollees), it provides no support for this specific level of effort, and at the same time ignores
the fact that NCSC/NSCERC -- in its normal daily functions and duties -- performs many labor-intensive
tasks, such as the contact and solicitation of some 9,000 enrollees each year, completes all the enrollment
applications, explains the program and its applicability to all enrollees, and then maintains and reports on
all the grant costs (for about 7,000 enrollees who join the program).

         The primary issue with respect to this finding was communicated to NCSC/NSCERC both in the
prior report (FYs 1993 to 1995) and was discussed, in detail, with representatives of both Seabury and
NCSC during and at the conclusion of the audit work. When asked about the basis for the establishment
of the administrative fee of 14.5 percent (based on earned premiums) and the related sharing arrangement
of 4.0 percent for NCSC and 10.5 for Seabury, these officials admitted that no study or analysis had ever
been performed to arrive at these amounts. For example, Seabury officials said the amount that they
receive (10.5 percent) was simply “the amount that NCSC had agreed to pay.” Also, the Director of
Finance of NCSC could not furnish any supporting documentation and provided no information as to why
the amounts that NCSC had received for its services was not, as required, “credited” to the Federal grant.
Once again, contrary to NSCERC official comments, the services that it performs for the administration
of the HIP are, in fact, charged to the DOL grant.

        We, therefore, recommend that the FY 1996 claimed costs be reduced and that NCSC/NSCERC
provide a basis and support for the administrative fee in general, and also for the Seabury/NCSC sharing
arrangement.




                                                      29
RECOMMENDATIONS

2. We recommend that the DOL Grant Officer:

    a. Reduce FY 1996 allowable direct costs of the Senior Aides grant by $244,584 which
was the amount NCSC failed to credit to the DOL grant and the excess amount that Seabury
retained for its services ($101,207 + $143,377 = $244,584).

   b. Require that NCSC/NSCERC return to DOL the imputed interest that the Federal
Government lost (not earned) for the period that NCSC had access to the $244,584.

   c. Require NCSC/NSCERC to provide a basis for the propriety of the 14.5 percent
administrative fee that it had established for reimbursement for the administrative services




                                            30
  Finding No. 3 - Third-Party General Liability Insurance



        NCSC/NSCERC charged the DOL SCSEP grant $337,532 for “third-party” general liability
insurance for the DOL enrollees and its own employees. NCSC/NSCERC’s procurement practices for
the purchase of this insurance were flawed as they did not: (1) use effective competitive procurement
procedures to solicit a sufficient number of competitive bids, and (2) negotiate a reasonable price. Instead,
as in the past, after receiving only a few bids, NCSC/NSCERC purchased the insurance, at what we
believe to be an excessive price, from a related company with which it shared managerial and executive
personnel.

          In this regard, NCSC/NSCERC did not provide sufficient pertinent information to all prospective
bidders and this could have had a significant impact on reducing the level of premiums. Moreover,
NCSC/NSCERC did not widely circulate the proposal to an adequate number of insurance companies to
obtain a reasonable number of bids. In our view, the insurance premiums charged to the DOL grant could
have been reduced by about $200,000 a year had NCSC/NSCERC used more effective competitive
solicitation and procurement procedures. Furthermore, NCSC/NSCERC did not request that its premium
be adjusted at the end of the policy year based on the claims experience and as provided for in its insurance
policy.

        Also, the premium for similar insurance for the EPA Senior Environmental Employment (SEE)
Program enrollees was improperly charged to “indirect costs” rather than as a “direct” charge to the EPA
grant. This resulted in an overcharge to the DOL grant through the allocation of excessive indirect costs.


Conflicts of Interest

         NCSC/NSCERC has continually purchased third-party general liability insurance from the Senior
Citizens Mutual Insurance Company Risk Retention Group (SCMICRRG). SCMICRRG was organized
in 1986 to provide liability insurance to not-for-profit organizations involved in senior citizen activities. This
company has maintained close managerial relationships with NCSC/NSCERC. Both organizations shared
key executives and Board of Trustee members. In NCSC/NSCERC’s consolidated financial statements
for FY 1996, the following information was presented:

        “Several members of the NCSC [or NSCERC] Board are also members of the
        Advisory Committee of SCMICRRG. A number of housing projects sponsored by
        NCSC are subscribers of SCMICRRG. . . .”

        On July 1, 1996, the Treasurer of SCMICRRG became the President of NCSC/NSCERC. He
and the former Executive Director of NCSC/NSCERC are also members of SCMICRRG’s Board of

                                                       31
Trustees. Such a relationship, at a management policy level, raises a number of questions about the
independence and objectivity of NCSC/NSCERC’s decision to purchase insurance from this firm.

         OMB Circular A-110,Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals and Other Non-Profit Organizations, sets forth policies
and procedures related to the award and administration of grants and agreements with nonprofit
organizations and performance criteria applicable to grant recipients. Subpart C, Paragraph 43,
Competition, states:

                “All procurement transactions shall be conducted in a manner to
                provide, to the maximum extent practical, open and free competition.
                The recipient shall be alert to organizational conflicts of interest as
                well as noncompetitive practices among contractors that may restrict
                or eliminate competition or otherwise restrain trade. . . .”

         Procurement procedures under Federally-funded grants should reflect the following policies and
principles:

        •   Maximum “open and free” competition must be sought for all purchases.

        •   The solicitation should be conducted to inform the greatest number of potential contractors of
            the intent to buy and should describe, as specifically as possible, what is desired.

        •   The relationship between the purchasing organization and the prospective contractor must be
            an “arms-length” business arrangement.

        •   The award should be made to the contractor who has the technical ability to perform at the
            lowest cost.

       Thus, where an organizational conflict of interest exists (as in the case of NCSC/NSCERC and
SCMICRRG), sound procurement practices require that extra efforts must be made to ensure maximum
open and free competition and the avoidance of an appearance of favoritism in the award.

NCSC/NSCERC Failed to Use Effective
Competitive Solicitation Procedures

         NCSC/NSCERC did not follow the aforementioned guidelines for “acceptable” competitive
procurement by failing to: (a) prepare and issue a sufficiently informative solicitation, and (b) obtain bids
from a reasonable number of insurance companies, including “major” insurance companies. In this regard,
NCSC/NSCERC did not provide pertinent information to the prospective bidders which could have had
a significant impact in reducing the level of premiums, nor did it circulate the proposal to a reasonable

                                                     32
number of insurance companies and obtain a sufficient number of bids. In our opinion, this constitutes a
weakness in NCSC/NSCERC’s procurement procedures. Insurance premiums charged to the DOL grant
could have been reduced by over $200,000 a year if NCSC/NSCERC had used effective competitive
procurement procedures.

        Inadequate Solicitation

        We believe that the NCSC/NSCERC, in its solicitation, failed to adequately describe the insurance
coverage that it desired. The type of information that NCSC/NSCERC should have provided to all the
insurance companies to enable them to submit a bid based on consideration of all pertinent factors includes:

        -- A general overview and a detailed description of NCSC/NSCERC’s operations, the locations
           of its offices, and the volume of third-party “visitor” traffic.

        -- A description of the type of services that the enrollees generally perform and that they only
           work on a part-time basis of about 20 hours a week.

        -- NCSC/NSCERC’s previous claims experience. No claims have been paid since a 1991
           settlement of an Equal Employment Opportunities Commission lawsuit that was filed by a
           former NCSC/NSCERC employee. In addition, only two other claims totaling $12,000 have
           been paid since 1988.

        -- The number of employees covered. NCSC/NSCERC has about 195 employees but the
           solicitation stated that it had “10,000 employees.” NCSC/NSCERC’s 10,000 enrollees are
           not NCSC/NSCERC employees. They are employees of the subrecipients.

        -- The fact that NCSC/NSCERC requires each of its subrecipients to carry a minimum of
           $300,000 of third-party general liability insurance for their enrollees (employees). Thus, the
           insurance purchased by NSCERC under its third-party liability policy of DOL enrollees is
           coinsurance and third-party claims would most likely be made against the subrecipient.

        Number of Bids

         NCSC/NSCERC data on its solicitation included a letter, dated February 10, 1993, which
NCSC/NSCERC sent to a number of insurance companies and insurance brokers. Only SCMICRRG
and one other insurance company submitted a “bid.” Another company said it needed additional
information. Still another company declined to submit a bid because it said that the solicitation process
required additional “data collection in much greater detail than had been possible.” Because only two
companies actually provided bids, and no bids were obtained from “major” insurance companies, we
believe that NCSC/NSCERC had not obtained a sufficient number of bids to ensure that an award would
be made to a bidder at the lowest price.

                                                    33
       In purchasing this insurance for FY 1996, NCSC/NSCERC again did not obtain bids from a
reasonable number of insurance companies. The bid proposal from SCMICRRG for FY 1996 was signed
by SCMICRRG’s Treasurer who a short time later became the President of NCSC/NSCERC.

        Reasonableness of Insurance Premiums

        The insurance primarily covers bodily injury and property damage to third parties that may occur
from work/training activities of DOL and EPA enrollees and NCSC/NSCERC employees.
NCSC/NSCERC’s third-party liability insurance policy data for both the DOL and EPA enrollees are
presented below.

                                                          Approximate Number
                                                            of Enrollees and
        Policy No.    Period Covered        Agency         Employees Insured             Premium

        GL1027-8      7/1/95-6/30/96        DOL              9,400 Enrollees
                                                                                         $337,532
                                                              175 Employees

        GL1064-5      7/1/95-6/30/96        EPA                400 Enrollees             $202,346



         In this regard, OMB Circular A-122, Cost Principles for Non-Profit Organizations, requires
that, to be allowable under an award, costs must be reasonable for the performance of the award.
Attachment A General Principles, Paragraph A.3. Reasonable costs states the following:

        “A cost is reasonable if, in its nature or amount, it does not exceed that which would
        be incurred by a prudent person under the circumstances prevailing at the time the
        decision was made to incur the cost. The question of the reasonableness of specific
        costs must be scrutinized with particular care in connection with organizations or
        separate divisions thereof which receive the preponderance of their support from
        awards made by Federal agencies. In determining the reasonableness of a given
        cost, consideration should be given to: . . . b. The restraints or requirements imposed
        by such factors as generally accepted sound business practices, arms length
        bargaining, Federal and State laws and regulations, and terms and conditions of the
        award. c. Whether the individuals concerned acted with prudence in the
        circumstances. . . .”

          In evaluating the reasonableness of the DOL premium of $337,532, we obtained certain cost data
for similar third-party liability insurance from two other national sponsors participating in this same DOL
program. One national sponsor, with about 18,000 enrollees (or twice as many as NCSC/NSCERC) said
that the insurance premium from a major insurance company for its enrollees and employees was $127,500


                                                     34
a year. Another national sponsor said that its insurance policy covering both the DOL program and EPA
program enrollees (and its employees) cost $30,900 a year and was also from a major insurance company.
        The table below shows the average insurance premium per enrollee for third-party liability insurance
for NCSC/NSCERC and two other national sponsors.

                                                                                 Average           Average
                                               Average         Average         Number of          Premium
                                  Annual      Number of       Number of         Enrollees/      Per Enrollee/
  National Sponsor/Program       Premium      Enrollees      Employees         Employees           Employee

  NCSC/NSCERC

        DOL                      $337,532          9,400             195             9,595            $35.18

  NATIONAL SPONSOR A

        DOL                      $127,500         18,000             450            18,450             $6.91

  NATIONAL SPONSOR B

        DOL/EPA                   $30,900     DOL 2,000               15             2,390            $12.93
                                              EPA 375



        *NOTE: The DOL Senior Aides enrollees each work 20 hours a week; most of the EPA
        program enrollees work full-time. All three insurance policies covering the DOL enrollees also
        include insurance for the national sponsor’s own employees.

        The table shows that the third-party liability insurance purchased by NCSC/NSCERC for the
DOL enrollees (about $35.00 per person insured) is five times that of national sponsor A (about
$7.00) and almost three times that of national sponsor B (about $13.00). Both national sponsors A
and B said that they followed competitive procurement procedures. Although there are some variables
which cause differences in the premium rates among national sponsors (e.g. the number of persons
covered), we believe that NCSC/NSCERC’s high premium cost per enrollee/employee for the DOL
program would have been significantly reduced had they:
(a) prepared/issued a sufficiently informative solicitation, (b) obtained competitive bids from a sufficient
number of insurance companies, and (c) negotiated a reasonable premium amount.

        We question DOL third-party liability insurance premiums claimed for FY 1996 by
NCSC/NSCERC as being unreasonable because they resulted from ineffective procurement practices.
The following schedule shows the amount that we believe to be the maximum reasonable cost for the
NCSC/NSCERC third-party liability insurance under both the DOL and EPA grants had
NCSC/NSCERC followed proper competitive procurement practices.




                                                    35
36
         Description                                                 DOL           EPA
                                                                     Grant         Grant
         Premium Charged                                           $337,532      $202,346

         Estimated Maximum Premium                                   100,000        30,000

         Excessive Premium Paid                                    $237,532      $172,346



Insurance Contract Provisions Violated

         The DOL insurance policy specifies that the premium stipulated in the policy is a “deposit
premium only” and is subject to an audit at the end of the policy year and a “recomputation” of an
“earned premium” for the period. As we have stated, no claims have been paid on the DOL policy
for FY 1995 and FY 1996. However, no action was taken by either the insurance company
(SCMICRRG) or NCSC/NSCERC to comply with the contract provisions to adjust the premiums
paid. We discussed this with a SCMICRRG insurance company official who said that, notwithstanding
the policy provisions, it was not their practice to adjust payments to an “earned premium” level. We
also discussed this with NCSC/NSCERC’s Director of Finance who said NCSC/NSCERC did not
take any action to determine if a recomputation of the premium paid was appropriate.

         In a letter dated March 19, 1997, SCMICRRG said that each policy it issues is individually
rated by its consulting actuaries as to the risk and the premium charges, but that the details of such
studies “are of course proprietary to this company.” Thus, we could not obtain essential information
to perform an assessment of the premiums paid by NCSC/NSCERC for the purpose of evaluating
possible adverse impacts that the close managerial relationships (between the insurance company and
NCSC/NSCERC) may have had on the amounts that DOL was charged for this insurance. In this
regard, it should also be noted that the consulting actuarial reports on NCSC activities included the
following information.

        “We relied on data supplied to us by [SCMICRRG] . . . . We did not audit this
        data . . . . We have not performed an underwriting analysis of the program. The
        choice of the overall funding levels and the charges for each insured are
        decisions of [SCMICRRG] and not decision of M&RG (actuaries).”




                                                 37
Improper Accounting Treatment

         The insurance premium of $337,532 applicable to the DOL grant is charged as a direct cost of the
DOL Senior Aides program. In contrast, the premium of $202,346 for the EPA insurance policy is
charged to NSCERC G&A expense. This inconsistent treatment of premiums as both a direct cost and
an indirect cost results in greater amounts of the EPA insurance policy premiums being charged to the DOL
Senior Aides grant than to the EPA program. NCSC/NSCERC’s Director of Finance could not explain
the basis for such improper cost accounting treatment.

      This accounting treatment is a violation of OMB Circular A-122, Cost Principles for Non-Profit
Organizations, Attachment A, General Principles, Subpart B. Direct Costs, which states:

        “1 . . . Costs identified specifically with awards are direct costs of the awards and
        are to be assigned directly thereto. Costs identified specifically with other final cost
        objectives . . . are direct costs of those cost objectives and are not to be assigned to
        other awards directly or indirectly.”

       Therefore, we have reclassified the EPA insurance costs from indirect G&A costs to the EPA
program as a direct charge.

AUDITEE’S RESPONSE

        This finding has been reported in the prior audit report. NSCERC repeats its prior
        statement that NCSC has followed appropriate “competitive solicitation
        procedures” in purchasing general liability insurance. In support of its position,
        NSCERC cites an earlier (FY 1989) audit report (Audit Report No. 03-91-033-03-
        360) which stated that NCSC was not following the directives of OMB Circular A-
        110. NCSC said it then instituted a “central purchasing system” to provide for a
        “competitive bidding process” and added that in October 1991 the DOL Grant
        Officer issued a final determination on the FY 1989 audit which expressed
        satisfaction that the grantee’s (NCSC) response was adequate to determine that
        corrective action was instituted.

        Concluding, NCSC/NSCERC said that DOL has long since approved NCSC’s
        procurement procedures with respect to its procurement of general liability
        insurance. With respect to the information that the auditors presented which shows
        that NCSC/NSCERC is paying an excessive amount for their insurance, NCSC said
        it “highly doubts” that adequate consideration was given by the auditors to
        comparable coverages with other similarly-situated sponsors. NCSC/NSCERC said
        the “employment-related coverage” that NCSC provides was “uncommon,” and
        believes that it is important to have insurance to defend against “employment-
        related claims.”


                                                   38
AUDITORS’ COMMENTS

          Notwithstanding NCSC/NSCERC’s claim that DOL has long since approved its procurement
practices (based upon its statement on a FY 1989 audit report), NCSC/NSCERC’s actions, in FY 1996,
do not ensure that the Federal Government is receiving the benefit of acceptable required competitive
solicitation procedures. The evidence also shows that NCSC/NSCERC has failed to follow normal
acceptable procedures in its FY 1996 solicitations by: (1) failing to provide basic, relevant data and
pertinent information to prospective bidders, and (2) failing to request bids from an adequate number of
responsible insurance carriers capable of providing the desired insurance.

         Despite NCSC’s stated doubts and in the absence of any support or justification, the results are
clear that a very significant disparity exists between the premium amounts paid by NCSC/NSCERC and
those of several other national sponsors who perform similar functions under the same type of DOL grant.

        Finally, we have also reported that specific contract provisions have been violated because the
DOL-funded insurance policy specifies that the insurance is “subject to an audit at the end of the policy
year” and, in this regard, a “recomputation” is to be made of the “earned premium.” Although no claims
were made on the DOL policy for FYs 1995 and 1996, no action was taken either by the insurance
company or NCSC/NSCERC to comply with the above policy provisions of the contract and to adjust
the premiums that were paid. NCSC/NSCERC, in its comments, failed to respond to this finding or to
provide any information relative to this violation of its standing insurance policy.

         With the acknowledged continued “close managerial relationships” that have existed since inception
of the program between NCSC/NSCERC and its insurance company (SCMICRRG), we believe that there
exists an even higher degree of responsibility for NCSC/NSCERC to implement and follow open, free, and
competitive procedures as it procures major, significant cost items, such as this insurance.




                                        {Intentionally Left Blank}



                                                    39
RECOMMENDATIONS

3. We recommend that the DOL Grant Officer:

   a. Reduce FY 1996 allowable costs for third-party liability insurance for the DOL grant
by $237,532.

    b. Ensure that future solicitations by NSCERC for insurance be conducted, as required,
in a competitively effective manner.

4. We recommend that the Director of DOL’s Office of Cost Determination reclassify the
charges of $202,346 for EPA insurance costs from the NSCERC indirect cost pool to EPA
direct costs and ensure that all future third-party liability insurance costs are properly




                                           40
 Finding No. 4 - Pension Plan Costs



         NCSC/NSCERC maintains a “defined benefits” pension plan (Plan) for its employees. The Plan
is funded by NCSC/NSCERC with a substantial portion of the “contributions” charged to the DOL
SCSEP grant. NCSC/NSCERC made cost adjustments at the end of the fiscal year to recognize
appropriate reductions in the pension plan costs for excess amounts that were charged to program activities
during the year. These adjustments, however, did not include crediting the DOL grant program for its share
of the excess costs charged. The amount that should have been credited to the Federal grant programs
was $103,545.

        The funding and the contributions to the pension plan are based on recommendations made by the
Segal Company -- NCSC/NSCERC’s actuarial consultants. The Segal Company, in its annual report,
estimated pension plan costs based on the estimated salary costs of the participating employees. The
pension plan costs were funded at prescribed intervals as required by governing regulations. The annual
actuary report also provided a status review of the plan’s assets and obligations at the close of the year as
described by the Statement of Financial Accounting Standards 87 (SFAS 87).

        NCSC/NSCERC’s financial statements for FY 1996 stated that:

                “NCSC adopted Statement of Financial Accounting Standards 87
                [SFAS 87] for pension accounting retroactive to 1987. SFAS 87
                requires the use of the projected benefit obligation and plan cost.”

         NCSC/NSCERC pension plan assets (on hand at the end of FY 1996) exceeded the maximum
level prescribed by SFAS 87 by $227,622. Therefore, NCSC made a year-end cost adjustment to reduce
its pension costs by this amount.

        Although the Senior Aides program was charged during the year with a major portion of the 1996
pension plan costs, the year-end adjustment did not credit the Senior Aides program with its share of the
excess pension plan costs. Accordingly, we recomputed the year-end adjustment to credit the DOL Senior
Aides program. The net adjustments are shown on the following page and are also presented in the report
Exhibits.




                                                    41
                                Reallocation of Year-End Pension Costs
                                           Fiscal Year 1996

                                                                                        Net
                                      FY 1996     Year-End Adjustments Per            Reconciling
    Program/Department              Salary Costs NCSC/NSCERC        Audit *           Adjustment
    NCSC - Information               $ 132,101     $ 20,208        $ 6,351
           - Membership                 387,378        59,258        18,642
           - Legislation                161,142        24,650          7,762
           - Political Action            60,735         9,290          2,914
                 Total                               113,406         35,669              $ 77,737

            - G&A                       746,653         114,216            35,919        **78,297

    NSCERC - Organization                 5,765                               273            (273)
           - G&A                      1,085,290                            52,216       **(52,216)

    DOL Grant-NSCERC                  1,080,497                            51,989         (51,989)
             -NCSC                    1,071,412                            51,556         (51,556)

            Total                   $4,730,973         $ 227,622         $227,622        $       0

       ( )Denotes decrease.

       *Computed in proportion to total salaries.
       **Net adjustment to G&A $78,297 - $52,216 = $26,081

AUDITEE’S RESPONSE

       This, once again, is a repeat finding that NCSC/NSCERC now states is not in need
       of the recommended accounting adjustment. This is because OMB Circular A-122
       requires that the allowable pension plan charges should be made in accordance
       with Generally Accepted Accounting Principles. NCSC/NSCERC concludes by
       stating that the DOL grant has been charged, based upon the actual contributions
       made, in accordance with the aforementioned OMB Circular.

AUDITORS’ COMMENTS

        NCSC/NSCERC has not responded to the finding as it is presented. The conversion from a
single employer to a multiple employer plan does not change the fact that the end-of-year accounting
adjustments must be equitably allocated.

                                                  42
         The required recommended accounting adjustments do not, in any way, “change” or affect the
total amount ($227,622) of actual pension costs recorded by NCSC. The adjustment, however, is
necessary so that all of NCSC/NSCERC programs are “equitably” allocated with their fair share of
costs, in proportion to the amount of the charges that NCSC/NSCERC had made during the year. The
purpose of the adjustment is demonstrated by the table on page 38 of this report. Finally,
NCSC/NSCERC’s failure to implement appropriate end-of-year adjustments results in an inequitable
charge against the DOL-funded SCSEP.



 RECOMMENDATION

 5. We recommend that the DOL Grant Officer require NCSC/NSCERC to equitably
 allocate its FY 1996 year-end adjustments for excess pension plan costs to all benefitting
 programs, and to credit the DOL grant with $103,545 of such year-end adjustments.
 (Reallocation of the year-end credits are described in the schedule on page 38 and in the




                                                43
 Finding No. 5 - Fringe Benefit Costs



        NCSC/NSCERC charges employee fringe benefit costs to the DOL Senior Aides program on
the basis of an estimated rate of 34 percent. As of the end of FY 1996, the cumulative estimated
amounts charged to the program exceeded the actual costs by $108,872. We believe that the estimated
fringe benefit costs should be adjusted to “actual” costs at the end of the year.

         Salary and fringe benefit costs of the NCSC and NSCERC employees are recorded each pay
period. The salary costs applicable to NCSC/NSCERC employees, who are identified with the DOL
Senior Aides program, are transferred to that program by an “Intra company billing entry.” As part of
this cost transfer, 34 percent is added to the salary costs for related employee fringe benefits, such as
payroll taxes and health insurance. These estimated amounts are then recorded in the DOL Senior Aides
program accounts as “actual” fringe benefit costs.

         Although the actual fringe benefit costs are readily determinable from NCSC and NSCERC
payroll records, no adjustments are made to the estimated amounts recorded in the general ledger;
instead, the estimated amounts recorded are considered as actual fringe benefit costs and reported as
such in the grant close-out reports. The difference between the actual and the estimated amounts charged
to the program are recorded in NCSC and NSCERC accounts as a “Deferred Credit - SA Program.”
NCSC/NSCERC said it follows this accounting practice because it assumes that the variances between
the computed estimates and the actual fringe benefit costs will be insignificant; however, as our audit work
has demonstrated, the differences are not insignificant and have resulted in excess charges being claimed
by NCSC/NSCERC.

        The overcharges for fringe benefits for the 12-month period ended June 30, 1996 were:


         Description                                                                        Amount
         NCSC- Deferred Credits                                                             $39,066

         NSCERC- Deferred Credits                                                             69,806

         Total Overcharges                                                                 $108,872

         The estimated fringe benefit costs should be adjusted to reflect the actual costs at the end of each
fiscal year and the estimated rate being used should be adjusted to more accurately reflect the actual
costs.

AUDITEE’S RESPONSE


                                                    44
       NSCERC said that NCSC has always reconciled the differences between the
       amounts “received” from the DOL Senior Aides program for fringe benefits and
       its actual costs. Any “excess” funding was then “held over” to cover fringe
       benefit costs for a prior year that surfaced in the current year.

       The amount that the auditors say had exceeded the actual costs ($108,872) is an
       accumulation of costs and not an amount for the 12-month period ending June 30,
       1996. The amount for the FY 1996 period is $65,018. In addition, NSCERC said
       (without explaining the reason) that it had failed to make any charges for
       insurance expenses and workers’ compensation for the period.

       Finally, NSCERC said that it is currently implementing the necessary procedures
       to ensure that adjustments are made annually to reconcile “estimated” fringe
       benefit costs with the “actual” costs prior to the close-out of the grant. NCSC
       also said that it is planning to revise the fringe benefit rate that it charges from one
       grant year to another so that the percentage (rate) is “more consistent with the
       actual costs incurred.” This would minimize the possibility of having any “excess
       funds” on hand at the end of the year.

AUDITORS’ COMMENTS

         Although NSCERC has not described the procedures it plans to use to ensure that adjustments
will be made each year, we fully agree that changes are necessary and should promptly and properly be
initiated.

         NSCERC is correct in stating that the $108,872 represents a cumulative amount of deferred
credits. However, because adjustments to the Senior Aides Program were not made in prior years, we
are recommending that the entire amount be credited against the Senior Aides FY 1996 fringe benefit
balance.

        With regard to the “planned changes,” it should be noted, however, that DOL grants are
awarded on an annual basis (program year basis) and that there should be “no excess” funding to “carry
forward” costs of a prior year that may surface during the current year. The proposed procedural
changes, together with a needed “closer monitoring” of the fringe benefit rate, are changes that are
necessary to ensure that NSCERC will have no “excess funds on hand” at the end of the program year
and the DOL grant will be charged only for “actual amounts” of fringe benefits.




                                                 45
RECOMMENDATIONS

6.   We recommend the DOL Grant Officer:

    a. Require NCSC/NSCERC to reduce FY 1996 amounts claimed as DOL grant costs
by $108,872, which was the amount that it overcharged the DOL grant for employee fringe
benefits, as of June 30, 1996.

     b. Monitor NCSC/NSCERC’s effort to ensure that estimated amounts more accurately
reflect actual costs, and that employee fringe benefit claims are based on actual costs rather




                                              46
 Finding No. 6 - EPA Senior Environmental Employment Program --
                 Enrollees Fringe Benefits



       NCSC/NSCERC charges enrollee fringe benefits to the EPA Senior Environmental Employment
(SEE) Program based on an estimated percentage each pay period. At the end of FY 1996, the
estimated amounts exceeded actual costs by $222,993. Under generally accepted accounting
procedures and applicable grant provisions, fringe benefits charged to EPA grants should be adjusted
to the “actual” costs at the end of the year.

         Actual EPA enrollee salaries and related fringe benefits are recorded in NSCERC accounts.
These costs are used for reimbursement claims to EPA. Although actual EPA enrollee fringe benefits are
recorded in NSCERC’s accounts, the EPA grant records are based on an estimated 24 percent of the
enrollees salaries. The difference between the “actual” and the estimated fringe benefit costs is
determined at the end of the fiscal year and recorded in an NSCERC “suspense account” entitled
“Deferred Credit-EPA Program.” This accounting procedure is based on NSCERC’s assumption that
the fringe benefit differences (between actual and estimated) will not be significant.

        However, as of June 30, 1996, the fringe benefits that were charged to the NSCERC-EPA
account had exceeded the actual costs by $222,993. These variances should be adjusted at the end of
the year and NSCERC should claim reimbursement from EPA based upon its actual costs and not on
estimates of fringe benefit costs. Further, because NCSC’s estimates have continually exceeded its
actual costs, NCSC should reexamine its basis for the establishment of its estimated percentage rate.

AUDITEE’S RESPONSE

       NSCERC said it had adjusted its fringe benefit rate several times from 18 percent
       initially, to 31 percent in 1994, and then to 24 percent effective July 1, 1995.
       According to NSCERC, some of the variances between the “estimated amounts”
       and the “actual charges” for EPA enrollee fringe benefits resulted from EPA’s
       recommendation that the SEE program commercial general liability insurance
       costs be paid from the 15 percent that NSCERC receives for administering the
       program.

       NSCERC has agreed to develop procedures to reduce the rate being charged to the
       program and, as necessary, said it will also monitor such costs on a monthly basis.




                                                 47
AUDITORS’ COMMENTS

         In light of NSCERC’s recent recognition of its need to more closely monitor actual costs for
fringe benefits on a monthly basis, we have no further comments. NSCERC’s procedures, which it now
states are being developed to ensure that the charges for enrollee fringe benefits are based on actual costs
rather than on estimated costs, should be properly implemented as soon as possible.



  RECOMMENDATIONS

  7. We recommend the Director of DOL’s Office of Cost Determination:

      a. Reduce EPA’s enrollee fringe benefit costs by $222,993 for the cost allocation base,
  which is the amount that NCSC/NSCERC had claimed over the “actual” costs as of June
  30, 1996.

     b. Monitor NCSC/NSCERC effort to reduce the estimated rate so that such charges
  will not continually exceed NCSC/NSCERC’s actual fringe benefit costs.

     c. Ensure that NCSC/NSCERC, in the future, bases its EPA enrollee fringe benefit




                                                    48
  Finding No. 7 - Housing Safety Program



        During FY 1996, NSCERC received revenue for its “housing safety” program; however, the
salary and fringe benefits of the individual who had oversight of this program were charged to NSCERC
G&A. We have removed these costs from the G&A pool and reclassified them as direct costs of the
safety program.

        The sources from which NSCERC received the revenue were:

        Revenue Account                         Payee                                     Amount

             303001             NCSC Housing Management Corporation                      $ 68,000
             303002             Senior Citizens Mutual Insurance Company                   28,000
             303003             National Steel Oldtimers                                   10,000
                                    Total                                                $106,000


        In response to our inquiry, we obtained a letter, dated February 8, 1994, signed by the Executive
Director of NCSC. The letter, addressed to the NCSC-Housing Management Corporation (HMC) and
the Senior Citizens Mutual Insurance Company Risk Retention Group (SCMICRRG), stated, in part:

                “You will both recall that the Boards of Directors of Senior Citizens
                Mutual Insurance Company and NCSC Housing Management
                Corporation recently voted to allocate $40,000 each to a safety
                program for the employees and tenants of our buildings, together
                with fiscal oversight. The person to perform these duties is. . . . He
                will be coming on board on or about March 1st.

                “Both . . . think it would be appropriate that the employing entity
                be the National Senior Citizens Education and Research Center,
                Inc. (NSCERC).”

         NSCERC in FY 1996 charged the direct labor and related fringe benefit costs of the individual
designated to perform this duties to NSCERC General and Administrative (G&A) costs as follows:




                                                   49
                             Description         Amount

                       Salary                                $ 79,000
                       Fringe Benefits (29.6%)                 23,384

                               Total                         $ 102,384

         Under applicable Federal requirements and regulations, the housing safety program should have
been established as a separate cost center, and the salary and related costs should have been charged
to this cost center. Further, although NSCERC had received revenue from several different sources,
such as the housing management corporation, it charged the salary of the person designated to manage
this program to NSCERC G&A costs which then resulted in additional costs being charged to the DOL
grant. Therefore, we have reclassified the individual’s salary and fringe benefit costs from NSCERC
G&A to the direct costs of the safety program.

AUDITEE’S RESPONSE

       With regard to the inappropriate charges to NSCERC’s general and administrative
       expenses ($102,384) for its “housing safety” program, NSCERC said that it did
       not have sufficient time to review this matter and make any necessary changes at
       the time the organizational change was made from NCSC to NSCERC for the
       administration of the Federal grant programs. NCSC concludes, however, that it
       agrees with this finding and will make the necessary changes.

AUDITORS’ COMMENTS

        In view of NSCERC’s statement that changes are necessary with respect to the charges that
were made to G&A expenses for the “housing safety” program and that these costs should be removed
from the G&A pool and reclassified, we have no further comments to make on this finding.


 RECOMMENDATION

 8. We recommend that the Director of DOL’s Office of Cost Determination reclassify
 the salary and fringe benefits ($102,384) from NSCERC G&A to direct costs of the




                                                 50
 Finding No. 8 - Indirect G&A Costs



          In its FY 1996 proposal to DOL for indirect cost rates, NCSC/NSCERC included certain items
in its indirect G&A cost pool (see Exhibit C) that were not properly classified as indirect costs or were
not allowable for Federal programs. The cost of these items amounted to $531,013 and are discussed
in detail in the following sections.

        a. Salaries and Fringe Benefits - EPA Program

             Although NCSC/NSCERC’s correspondence, dated July 22, 1997, to DOL transmitting
its FY 1996 indirect cost proposal states that the EPA Senior Environmental Employment (SEE)
Program “has no direct salaries recorded” in NSCERC’s accounts, NSCERC’s organizational charts
on the other hand describe the program as a “departmental activity” comparable to the DOL Senior
Aides program. Also, NSCERC’s staff directories list four employees who are directly involved with
the EPA program. Their assignment to the EPA program was confirmed in our discussions with the
program supervisor. These employees’ duties involved recruitment and termination of EPA enrollees;
the review and approval of EPA enrollees biweekly time sheets; program liaison with EPA headquarters
and field office operating officials; and, the review and approval of enrollees’ travel advances and
expense vouchers. Enrollee payroll processing, the disbursement of payroll and travel expenses and
accounting for EPA grant costs were performed by support staff members. Accordingly, we reclassified
the salaries and fringe benefits of the four employees to direct program costs as follows:

                          Description of Expense                    Amount

                         EPA Program Salaries              $181,920
                         Fringe Benefits (29.6%)                     53,848
                                 Total                             $235,768

        b. Insurance and Taxes

             The indirect cost account for insurance and taxes includes a $202,346 insurance premium
for third-party general liability insurance for EPA enrollees. Accordingly, we reclassified this amount from
the indirect G&A cost pool to a direct charge to the EPA SEE program.

              Also, NCSC/NSCERC follows inconsistent accounting practices in that it charges the
premiums for the DOL third-party liability insurance policy directly to the DOL Senior Aides program,
while it charges the EPA third-party policy premium to indirect G&A costs which it then distributes to
all its programs, including the DOL Senior Aides program. We discussed this matter with the NCSC



                                                    51
Director of Finance who was unable to provide us with an explanation for this inconsistent accounting
practice.
        c. Postage and Duplication Expenses

             Costs incurred for “in-house” postage and duplication are initially charged by
NCSC/NSCERC to indirect costs. NCSC employees performing these functions maintain “usage”
records for each NCSC and NSCERC program and activity. Based upon these records, each program
is “internally” billed and the amounts directly charged to the program. The total amounts billed are
recorded as “Intra company” income accounts with the ultimate objective of reducing the indirect cost
amounts originally charged. As of the close of FY 1996, the charges to the direct program cost accounts
exceeded the “credits” to the indirect cost accounts by the following amounts that remained in the
intercompany income accounts.

                Description of Activity                                Amount

                Duplicating Reimbursement (Account 380060)            $ 2,287
                Postage Reimbursement (Account 380070)                           10,881
                       Total                                                   $ 13,168

       Accordingly, we reduced the indirect G&A cost accounts by the amounts charged directly to the
programs in excess of the amounts “credited” to the indirect cost accounts. We discussed this matter
with the NCSC Director of Finance but were not provided with any information as to why
NCSC/NSCERC programs were charged “excess” amounts for these type of support services.

        d. Library Services

             The NSCERC organizational chart, dated January 1, 1996, shows that the library is part of
its “public policy” activity together with education and research related to social security issues, health
care issues, safety issues, and planning for retirement. The library is located at NCSC/NSCERC’s
headquarters and is staffed by an Information Center Supervisor and an Information Services
Coordinator whose labor hours are charged to NSCERC indirect G&A costs. Public policy and similar
activities are directly related to NCSC’s membership activities and to its periodic publications and
newsletters that are prepared by NCSC’s public information department. Such information, however,
is not routinely distributed to DOL or EPA enrollees nor are the “public policy issues” related to
NCSC/NSCERC’s management or administration of the DOL or EPA Federally funded programs.

         Accordingly, we reclassified library personnel salaries and fringe benefits from indirect G&A
costs to direct membership activities as follows:




                                                   52
                         Description of Expense                    Amount
                         Library Staff Salaries                   $ 66,561
                         Fringe Benefits (19.78%)                   13,166
                                 Total                            $ 79,727

AUDITEE’S RESPONSE

        NSCERC said that all EPA SEE program expenses were treated as “indirect” for
        the period ending June 30, 1996, because NSCERC employees “had other
        corporate responsibilities.” NCSC said that it intends to revise the indirect cost
        rate proposed for FY 1996 in order to reclassify EPA grant salaries and insurance
        costs from “indirect” to “direct.” Such anticipated revision in its indirect cost
        proposal will, of course, be subject to approval by the DOL Office of Cost
        Determination.

        On the subject of insurance and taxes, NSCERC contends that the $202,346 was
        an “indirect cost” and, in the absence of any guidance from DOL and EPA,
        NSCERC continued to handle these program activities as they had been handled
        in the past. NSCERC said that it had requested assistance from the DOL Office
        of Cost Determination on how it should resolve the differences between the DOL
        and EPA grants, but added that no assistance was ever received.

        With regard to the postage and duplication expenses, NSCERC said these accounts
        should have been reduced by the amount of the reimbursements received.

        Finally, on the charges that NSCERC had made for library services, NSCERC said
        its organizational chart does not show the library as part of its “public policy”
        activities and the library and related personnel serve the organization as a
        “whole” and provide a wide-range of materials relating to both the management
        and administration of all its programs.

AUDITORS’ COMMENTS

         NSCERC agreed that the EPA salaries and fringe benefits, insurance, and taxes should have been
charged directly to EPA. It also agreed that the postage and duplication expenses should have been
reduced by the reimbursement received. Therefore, the Office of Cost Determination’s removal of these
costs from the indirect cost pool and the direct charging to EPA for the salaries, fringe benefits, insurance
and taxes should resolve this portion of the finding.

         Although making certain generalizations about the purpose, functions, and day-to-day activities of
the library, NSCERC did not provide any information to indicate that the expenses of the Information

                                                    53
Center Supervisor and Information Services Coordinator should be charged to NSCERC’s indirect G&A
costs. For the most part, absent the essential supporting information, the library services are appropriately
an item of expense that is chargeable to the “direct membership functions” of NCSC and not to
NSCERC’s indirect costs.


    RECOMMENDATIONS

    9. We recommend the Director of DOL’s Office of Cost Determination make the following
    revisions in NCSC/NSCERC’s indirect cost proposal:

      a. Reclassify salaries and fringe benefits applicable to EPA program grants from
    NSCERC indirect costs to direct costs of such grants - $235,768.

      b. Reclassify EPA enrollee third-party liability insurance premiums of $202,346 from
    NSCERC indirect costs to direct costs of EPA program grants.

       c. Reduce NCSC indirect costs of duplicating and postage by $2,287 and $10,881,
    respectively.

        d. Reclassify library salary and fringe benefit costs of $66,561 and $13,166,




                                                     54
 Finding No. 9 - Distribution of Indirect Costs



         NCSC/NSCERC’s FY 1996 indirect cost proposal allocates indirect general and administrative
costs (G&A) of both organizations (NCSC and NSCERC) to all their programs, including the DOL Senior
Aides program, under a “modified total direct cost” allocation base. This is a change from the indirect
cost allocation methodology used in prior years (e.g., a direct salaries and wages allocation base) which,
NCSC/NSCERC contends, was necessary because the DOL Senior Aides program was transferred from
NCSC to NSCERC.

         We believe the proposed change to a “modified total direct cost” allocation base would be
appropriate if NCSC/NSCERC had not arbitrarily included 15 percent of the subrecipient costs. The
modified total direct cost allocation base as formulated by NCSC/NSCERC does not, as required,
distribute indirect costs to benefitting activities on the basis of relative benefits received. Instead, it results
in indirect cost charges to programs that do not correspondingly benefit from such charges.
NCSC/NSCERC’s new allocation base adds about $400,000 of G&A costs to the FY 1996 DOL Senior
Aides program.

          The salary and fringe benefit costs for NCSC/NSCERC personnel who perform: (a) the budgeting,
accounting, and fiscal review functions for the DOL Senior Aides program, as well as
(b) the budget, accounting, reporting, cash drawdowns and cash transfers for subrecipients, are charged
directly to the DOL Senior Aides program. Therefore, the Senior Aides program is already being charged
its fair share of the indirect costs. That is because by charging NCSC/NSCERC personnel costs as direct
costs to the DOL grant, the costs are included in the indirect cost allocation base used to allocate
NCSC/NSCERC’s indirect costs. Furthermore, the G&A costs computed and reported by these
subrecipients to support their enrollee activities are charged to the DOL grant as the non-Federal matching
share of grant costs.

        NCSC/NSCERC’s action is contrary to the terms of the January 1, 1996 Novation Agreement
between NCSC, NSCERC, and DOL for the Senior Aides program. The Novation Agreement states that
the Federal Government is not obligated to pay or to reimburse either NCSC or NSCERC for any
increases in costs that may result from the transfer of the DOL Senior Aides program from NCSC to
NSCERC.

NCSC/NSCERC Proposed Revision to the
DOL-Approved Indirect Cost Allocation Base

         On July 22, 1997, NCSC/NSCERC submitted an indirect cost proposal to DOL’s Office of Cost
Determination (based on actual FY 1996 costs) for the purpose of establishing: (1) a Final Indirect Cost
Rate for FY 1996, and (2) Provisional indirect cost billing rates for FYs 1997 and 1998. The transmittal
letter to DOL accompanying its FY 1996 indirect cost proposal states:


                                                       55
             “Because of the change whereby National Senior Citizens Education &
             Research Center (NSCERC) now administers all federal grant programs, the
             organization must utilize an alternate method of establishing an indirect cost
             rate. This is due to the fact that the current method which is based on the
             direct salaries would no longer be applicable to all programs within NSCERC
             (i.e., EPA’s Senior Environment Employment Program (SEEP), a program
             which is comprised primarily of contract service payments and has no direct
             salaries).

             “Accordingly, the organization is utilizing a modified total direct cost base
             which will result in a more equitable distribution of indirect costs to all
             benefitting activities.” (Underscoring added.)

         Although the transfer of the DOL program from NCSC to NSCERC warrants certain indirect cost
allocation changes or modifications, we do not agree that NCSC/NSCERC’s proposed “modified total
direct cost” allocation base results in a more equitable distribution of indirect costs. Instead, this allocation
base results in the distribution of indirect costs to the DOL grant substantially in excess of the benefits
received by the grant.

Proposed Indirect Cost Allocation Base

         The “modified total direct cost” allocation base that NCSC/NSCERC proposed for the
allocation of indirect G&A costs includes $9,321,951 (or 15 percent of $62,143,340 of DOL subrecipient
grant costs) which represents most of the costs computed and reported by NCSC/NSCERC’s 148
subrecipients who operate at the community level, recruiting, managing, and sustaining the DOL grant
operation in their local areas. The costs computed and reported by the subrecipients include enrollee
salaries, fringe benefits and other enrollee costs such as physical examinations and training. DOL enrollees
receive their primary indirect G&A support from their local subrecipient organizations. The G&A costs
computed and reported by these subrecipients to support their enrollee activities are charged to the DOL
grant as the non-Federal matching share of grant costs. Including this amount in the allocation base will
result in $1,581,334 of NCSC/NSCERC’s total proposed indirect costs ($4,136,838) being allocated to
the DOL program.

        We requested information from the NCSC Director of Finance to explain: (a) the basis for the
percent (15%) or the amount ($9,321,951) of subrecipient costs being included in NCSC/NSCERC’s
proposed indirect cost allocation base, and (b) the amount of indirect costs ($1,581,334) to be allocated
to the DOL Senior Aides program. The Director of Finance was unable to provide any information or to
explain the basis or the rationale for NCSC/NSCERC’s decision.

NCSC/NSCERC Headquarters Indirect Costs




                                                      56
         OMB Circular A-122 provides that an allocation base used to distribute indirect costs should result
in the assignment of total indirect costs or a specific indirect cost grouping to the organization’s programs,
in accordance with the relative benefits received by each program. Benefits, for the most part, are
measured by a “cause and effect” relationship.

         NCSC/NSCERC’s indirect costs, incurred in FY 1996, are shown in detail in Exhibit C. The
major support functions which NCSC/NSCERC has included in its indirect costs and which it allocates
to its program activities include:

                         --   Executive management services
                         --   Finance and accounting services
                         --   General maintenance and housekeeping services
                         --   Office rent and occupancy costs
                         --   Depreciation of headquarter’s equipment
                         --   Supplies

        NCSC/NSCERC headquarters’ indirect cost activities shown above benefit its own program
operations performed at its own office facility. They do not, however, provide any measurable direct
benefits to subrecipient’s operations or enrollees’ day-to-day activities conducted at the local community
level. The administrative support at the local level is based essentially on those indirect cost functions that
are performed at that level and not at the NCSC/NSCERC headquarters level.

Budget and Accounting Operations

         The budget and accounting personnel and their related costs represent a major component of the
indirect cost pool and must be considered in determining the best method of allocation. The salary and
fringe benefit costs for NCSC/NSCERC personnel performing budgeting and accounting functions for the
DOL Senior Aides program are charged directly to the program. In addition to maintaining DOL grant
accounts, these employees perform the budget, accounting, reporting, cash drawdowns and cash transfers
for subrecipients. For FY 1996, the personnel costs for these employees were $1,420,464.

         On the other hand, these same types of functions for other Federal and non-Federal programs are
performed by NCSC/NSCERC personnel whose time and related costs are accounted for as indirect
G&A costs and thus allocated to all programs, including the DOL Senior Aides program. Including the
salaries of DOL Senior Aides program budget and accounting personnel as direct costs results in substantial
additional indirect cost charges to the DOL grant program. We have accepted the salary and related costs
of DOL Senior Aides accounting personnel because the program receives some benefits, such as payroll
services from the headquarters support function.

        With respect to the: (1) Hospital Indemnity Plan (HIP) insurance costs, and (2) DC subrecipient
enrollee costs, we believe different accounting treatment is warranted. Although the HIP insurance program
involves subrecipient enrollees, the record keeping and accounting operations for the determination and

                                                     57
payment of the monthly premiums are performed by NCSC/NSCERC headquarters Senior Aides
personnel and are directly charged to the DOL grant. Similarly, NCSC/NSCERC performs the accounting
and payroll functions related to the DC subrecipient enrollees. DC enrollees are NCSC/NSCERC
employees for payroll and payroll tax reporting purposes. Therefore, we have reclassified these costs - -
$2,160,473 (HIP) and $376,215 (DC) -- from subrecipient costs to headquarters’ costs so they can be
included in the headquarters’ direct cost allocation base.

Novation Agreement

        Transferring management responsibility for the FY 1996 DOL Senior Aides program to NSCERC
from NCSC was officially approved under a Novation Agreement, effective January 1, 1996, signed by
representatives of DOL, NCSC, and NSCERC. Paragraph B(7) of this agreement states:

            “The Transferor and the Transferee agree that the Government is not
            obligated to pay or reimburse either of them for, or otherwise give effect to,
            any costs, taxes, or other expenses, or any related increases, directly or
            indirectly arising out of or resulting from the transfer of this Agreement,
            other than those that the Government in the absence of this transfer or
            Agreement would have been obligated to pay or reimburse under the terms
            of the contracts.” (Underscoring added.)

        The terms of the Novation Agreement precludes either organization from receiving funds in excess
of the amounts which “the Government would have been obligated to pay or reimburse” in the absence of
the transfer. However, the NCSC/NSCERC “modified total direct cost” allocation base adds about
$400,000 to the indirect costs of the DOL Senior Aides program and is contrary to the terms specified in
the Novation Agreement.

AUDITEE’S RESPONSE

        NSCERC said that the auditors “inappropriately and arbitrarily” developed a
        “modified total in-house direct cost base” to allocate indirect costs because this
        would result in lower indirect costs being charged to the DOL grant. NSCERC
        contends that the auditors’ recommendation is “arbitrary” and not in conformity
        with OMB directives. Contrary to these directives, NSCERC states that the auditors
        have added $2,160,473 (gross HIP insurance premiums) to the allocation base.
        Because the insurance premium is not an appropriate measure of benefits received,
        NSCERC said that this amount should not be included in the distribution base.

        With regard to DC enrollee wages, NSCERC said the auditors have been inconsistent
        because in this FY 1996 report they included 100 percent or ($376,215) in the base
        which distorts the “indirect benefits provided to this activity.” For FY 1997, NCSC

                                                   58
        proposes to use an allocation base consisting of “total direct costs,” but excluding
        that portion of each subaward (subrecipient) in excess of $25,000 and seniority
        printing and postage expenses. In conclusion, NSCERC said that its proposed
        allocation base recognizes that the indirect costs benefit the “subawards” and it
        eliminates the printing and postage contract which, if included in the base, would
        “distort” the distribution of indirect costs.

AUDITORS’ COMMENTS

         It was NCSC/NSCERC, not the auditors, who proposed the use of a “modified total direct
cost” allocation base. This became necessary when NCSC transferred the DOL SCSEP grant to
NSCERC. The auditors have adjusted the base to ensure that it is the most equitable method for
distributing NCSC/NSCERC combined indirect costs. We removed the “arbitrary” 15 percent of the
DOL subrecipient grant costs that NCSC/NSCERC proposed to include in the base, because each
subrecipient receives indirect support from its own G&A personnel and organization. The local G&A
support costs are charged to the DOL grant as “non-Federal share” grant costs. In addition, the
budgeting, accounting and finance activities which support the subrecipients are performed by NSCERC
Senior Aides finance employees who are directly charged to the DOL grant, are included in
NCSC/NSCERC’s allocation base and, therefore, absorb their share of G&A expenses. This then
provides the DOL grant with its “fair share” of G&A costs.

        The equity objectives and the purpose of the auditors recommendations to include the HIP
insurance costs and the DC enrollee salary costs, in the indirect cost allocation base is to recognize, as
appropriate, that these functions are performed by NCSC/NSCERC headquarters personnel and,
NCSC/NSCERC should be charged with their portion of indirect costs incurred for the headquarters.



   RECOMMENDATIONS

   10. We recommend that the Director of DOL’s Office of Cost Determination:

        a. Establish indirect cost rates for FY 1996 using a total “in-house” direct cost
   allocation base, recognizing the allowable indirect costs as presented in Exhibit C.

       b. Disallow the 15 percent of subrecipient costs ($9,321,951) included in the allocation
   base and include $2,160,473 and $376,215 representing the gross HIP insurance premiums
   and the DC enrollee costs, respectively, in the allocation base.

        c. Require NCSC/NSCERC to adopt an equitable indirect cost method for the Federal



                                                   59
60
  Findings No. 10 - Fiscal Monitoring of Subrecipients



         NCSC/NSCERC’s fiscal audit staff visited most of the 148 DOL grant subrecipients twice during
Fiscal Year 1996 to perform “full on-site” audits (interim and final) of the accounting and fiscal records of
the DOL Senior Aides program. A “full on-site” audit consists of a review of the internal controls and
certain tests of the accuracy of subrecipient costs. Although we were informed by the Chief Fiscal
Representative that in FY 1997, NSCERC reduced its visits to one fiscal audit each year of each
subrecipient, and a second audit only when needed, NSCERC did not make a corresponding reduction
in its budget or reduce the number of its fiscal representatives for FY 1998. A reduction in the audit activity
should have resulted in direct cost savings (salary, fringe benefits and travel costs) of about $400,000 a
year.

Results of NCSC/NSCERC Audits of Subrecipients

         We randomly selected for review 27 subrecipient audit reports performed by NCSC/NSCERC’s
fiscal audit staff. The results of these audits are summarized in the following schedule together with
comparable data that we had included in our prior NCSC audit report (FYs 1993, 1994 and 1995).
                                                                             FY 1996*
             Budgeted total direct costs of the fiscal department           $1,063,625

            Results of our review of fiscal audits:
             Number of audits reviewed                                                    27
             Audits with no questioned costs                                              19
             Audits with questioned costs                                                  8

            Total amount of questioned costs                                         $6,311

            Average amount of questioned costs (per audit)                             $234
            Average amount of direct costs (per audit)                               $3,593

            *Includes budget amounts for salaries, fringe benefits and travel.

         Each subrecipient, whether a local government entity or a not-for-profit organization, is audited
each year by its own independent accounting organization. In addition, each subrecipient is required, by
its agreement with NCSC, to have an annual OMB Circular A-133 single audit of its government activities
and submit a copy of the audit report to NCSC/NSCERC. The single audit is conducted in accordance
with Government-mandated procedures designed specifically to disclose any weaknesses in cost charges
to individual government programs and to report the findings. The costs of these audits are directly charged
to the DOL Senior Aides grant. These audits should be utilized in indicating which subrecipient(s) require
additional reviews.

                                                      61
        Although NCSC/NSCERC officials have reduced the number of fiscal audits to one a year, using
the same review guide as in the past, they have not reduced the staff time devoted to performing these
functions. As a result, the cost per fiscal audit has increased significantly and possible cost savings have
not been realized.

AUDITEE’S RESPONSE

        NSCERC said that it is always evaluating its staff relative to effectiveness,
        efficiency, and economy. NSCERC said since it implemented the one visit per year
        policy, it has reduced its fiscal monitoring staff by 3 members (from 12 to 9).
        NSCERC added that it also is currently attempting to “combine” fiscal monitoring
        responsibilities with program monitoring duties.

        In conclusion, NSCERC said that after it completes its current “field representative
        monitoring experiment,” it anticipates further economical improvements and
        overall effectiveness in its administration of the SCSEP.

AUDITORS’ COMMENTS

         Based upon: (a) NSCERC’s comments and plans to revise its procedures on this finding and the
related finding on “program monitoring” (Finding No. 11) which should result in appropriate staff reductions
and commensurate cost savings, and (b) NSCERC’s agreement to make additional improvements in its
program administration, we have no further comments.



 RECOMMENDATIONS

 11. We recommend that the DOL Grant Officer monitor NCSC/NSCERC’s agreed-upon
     efforts to:

      a. Combine the fiscal monitoring and program monitoring duties, and

      b. Improve the effectiveness of its administration of the SCSEP.




                                                    62
 Findings No. 11 - Program Monitoring of Subrecipients



          NCSC/NSCERC has 26 full-time employees and related support personnel to monitor the
program activities of its subrecipients. This monitoring consists, on average, of two visits a year to each
subrecipient, plus one or two interim desk reviews of the information that subrecipients submit. We believe
that this level of monitoring can be substantially reduced, without adversely affecting program management
and control. Onsite program visits can be limited to one a year which could result in cost savings of about
$500,000 a year. Also, duplication between fiscal and program monitoring should be eliminated to help
reduce overall monitoring efforts and expenses.

Program Monitoring

       The budgeted costs for program monitoring, as included in NCSC/NSCERC’s FY 1996 grant
proposal, is:

                           Cost Element                                       Amount

                Staff salaries                                             $ 941,583
                Support staff salaries                                        198,051
                Fringe benefits (34.25%)                                      390,324
                Travel                                                        270,000
                         Total direct costs                                $1,799,958
                Indirect costs (95% of salaries)                            1,082,652
                         Total cost                                        $2,882,610

                Monitoring costs (per subrecipient)                         $ 12,245
                Direct costs for each “on-site” review                       $ 3,534*

                *Based on an estimated average of 2 weeks of staff time to perform each review.

Subrecipient Reviews

         We reviewed the FY 1996 program monitoring files for 10 randomly selected subrecipients. The
results of the reviews are presented on the next page.




                                                   63
PY 1996                                Number of Reviews            Review Reports
Subrecipient Number                    Field Desk Total        Recommendations* Directives**

       10                                2       1       3             0                   5
       31                                3       0       3             2                  37
       51                                2       1       3             1                   5
       61                                2       1       3             1                   1
      138                                2       0       2             1                   5
      153                                2       1       3             0                   0
      160                                3       0       3             0                   8
      170                                2       1       3             3                   2
      189                                2       1       3             2                   2
      213                                2       1       3             1                   6
         Total                          22       7      29            11                  71

       *Recommendations to improve the quality of the project and must be approved by a supervisory
       program representative.

       **Directives identify problems and describe corrective action to comply with NCSC’s Policy and
       Procedures.

Monitoring Results

        We randomly selected reports on 10 subrecipients for review which included monitoring data on
22 onsite visits and 7 desk reviews performed by the NCSC program staff. Our analysis of these reports
disclosed:

       • Of the 29 onsite and desk reviews, 20 reports had no recommendations and 10 had no
         directives.

       • Directives calling for corrective action related mainly to recurring items such as: a need to
         “maintain authorized enrollment strength,” or the need to “increase the number of
         placements.”

       • The monitoring had identified 27 items that should be examined by the program reviewer. Of
         these items, 23 were determined from reports that subrecipients had submitted; and 4 items
         were of the type that only could be determined by an onsite review.

Other Matters Relating to NCSC Program Monitoring

       1. Duplication of Monitoring Reviews



                                                 64
             The fiscal and program review manuals are used as guidance for the reviews of subrecipients
and contain a significant amount of duplicate information. For example, seven items were discussed in both
manuals which relate to enrollment numbers, eligibility, wage rates per hour, total work hours, durational
limits for host agency service, use of training funds, and physical examinations.

         Such duplication should be avoided, to the extent possible, and a consolidation and coordination
of fiscal and program monitoring implemented.

        2. Data Available at NCSC/NSCERC Headquarters

            NCSC/NSCERC has increased the amount of subrecipient operating and financial data at its
headquarters by purchasing the “Grant Management System Development” at a cost to the DOL Senior
Aides grant of $341,865. Under this system, the data from each subrecipient location on enrollees’
recruitment, assignment, and termination history, as well as financial information on program operations,
is available to headquarters personnel. Also, available are the monthly and quarterly status reports
submitted by each subrecipient showing pertinent information on their operations.

             This information and the computer summaries and analyses can be used to help reduce the need
for “on-site” monitoring.

AUDITEE’S RESPONSE

        NSCERC states, as it has in the past on discussions of this finding, that the main
        objective of site monitoring is to provide “technical assistance” to Senior Aides
        program personnel, which they believe is most effective through on-site monitoring.
        NSCERC said that serious consideration will be given to including the technical
        assistance provided in its future reports. NSCERC said that it is also evaluating the
        merits of “consolidating” general program and fiscal monitoring responsibilities into
        one position.

        NSCERC also said that the auditors failed to comprehend the true purpose of the
        “guidance provided for fiscal and program staff.” In reality, NSCERC said that
        there is no duplication of effort but only a clear delineation and guidance on
        program and fiscal perspectives and responsibilities.

        Concluding, NSCERC said that upon the completion of its “field representative
        monitoring experiment,” one person will perform the functions of “enrollee
        accountability” and “compliance review.” This process, NSCERC said, will begin
        in the next grant period.




                                                   65
AUDITORS’ COMMENTS

         It appears that NCSC/NSCERC is now planning to reduce the number of field visits and to take
certain actions to avoid the apparent duplication of effort by combining its fiscal monitoring and program
monitoring duties and responsibilities. This action, if properly implemented and effectively managed, should
make additional funds available to accomplish the primary objectives of the SCSEP.



  RECOMMENDATION

  12. We recommend the DOL Grant Officer monitor NCSC/NSCERC’s planned efforts
  to reduce the staff time for program monitoring commensurate with the unwarranted




                                                    66
EXHIBITS




   67
                                                                                            Exhibit A
                                National Council of Senior Citizens, Inc.
                      National Senior Citizens Education & Research Center, Inc.

           Proposed and Audit-Recommended Federal Share Direct and Indirect Costs of
                            DOL SCSEP Grant for Fiscal Year 1996

                                                                 Results of Audit
                                              Proposed   Questioned      Recommended        Finding
       Cost Element                          by NSCERC by Auditors          by Auditors     Number
Salaries                                     $ 2,151,909                    $ 2,151,909
Fringe Benefits and Payroll Taxes                768,971 $ 103,545                             4
                                                            108,872             556,554        5
Professional Fees and Contract Services
       (Federal Share Only)                   53,034,222                    53,034,222
Supplies                                          15,486                        15,486
Office Furniture                                     702                           702
Telephone                                         29,091                        29,091
Postage and Shipping                              27,696                        27,696
Building Occupancy                               460,620                       460,620
Rental Equipment                                  21,159                        21,159
Repairs and Maintenance                           25,101                        25,101
Travel                                           498,404                       498,404
Conferences and Meetings                         353,304                       353,304
Printings and Publishing                          37,250                        37,250
Data Processing                                  534,200                       534,200
Insurance and Taxes                              337,532       237,532         100,000         3
Other Expenses                                    51,225                        51,225
HIP Premiums Paid                                               948,983       (948,983)        1
Administrative Fees                                             244,584       (244,584)        2
       Total Direct Costs (a)                $ 58,346,872    $1,643,516    $56,703,356

Adjustment for Subrecipients
 Less: Professional Fees/Contract Services    (53,034,222)                 (53,034,222)
 Plus: Subrecipient Costs*                      9,321,951   9,321,951                          9
 HIP Premiums Paid                                         (2,160,473)       2,160,473         9
 DC Enrollee Wages                                           (376,215)         376,215         9
Base for Allocation of Indirect Costs (b)    $ 14,634,601 $ 8,428,779      $ 6,205,822

Indirect Cost Rate (c)                            0.1696                           0.2171   Exhibit C

Indirect Costs (bxc)=(d)                     $ 2,482,028     $1,134,744    $ 1,347,284

     Total Costs (a+d)                       $ 60,828,900    $2,778,260    $58,050,640



                                                  68
*The NCSC/NSCERC proposed share of subrecipent costs ($9,321,951) was based on 15 percent of the total
direct professional fees and contract services, including the non-Federal share.




                                                 69
                                                                                              Exhibit B

                                 National Council of Senior Citizens, Inc.
                       National Senior Citizens Education & Research Center, Inc.

                    Proposed and Audit-Recommended Direct and Indirect Costs of
                            EPA SEE Program Grant for Fiscal Year 1996

                                                                Results of Audit
                                             Proposed       Ouestioned Recommended       Finding
        Cost Element                       by NSCERC       by Auditors    by Auditors    Number

Enrollees
 Salaries                                   $ 4,776,118                    $4,776,118
 Fringe Benefits and Payroll Taxes            1,107,313                     1,107,313
Employees
 Salaries                                                    (181,920)        181,920    8a
 Fringe Benefits and Payroll Taxes                            (53,848)         53,848    8a
                                                              222,993        (222,993)   6
Supplies                                           448                            448
Telephone                                        2,516                          2,516
Postage and Shipping                               554                            554
Building Occupancy                                  99                             99
Rental Equipment                                   367                            367
Travel                                         214,079                        214,079
Printings and Publishing                           446                            446
Medical Monitoring                              31,829                         31,829
Training                                         4,858                          4,858
Insurance                                                    (202,346)                   3&8b
                                                              172,346          30,000    3
Miscellaneous Expenses                            2,150                         2,150
Unexplained Differences*                         (7,276)                       (7,276)
     Total Direct Costs                     $ 6,133,501     $ (42,775)     $6,176,276

Indirect Cost Rate                         (Note No. 1)                        0.2171    Exhibit C

Indirect G&A Costs                          $1,089,748     $(251,122)      $1,340,870

      Total Costs                           $7,223,249     $(293,897)      $7,517,146

Note No. 1. NSCERC added 17.6471 percent to each direct charge item to provide a total
indirect cost charge of 15 percent of total costs.


                                                  70
*Difference between amount shown in NSCERC - Grant records and NSCERC indirect
cost proposal.




                                               71
                                                                                         Exhibit C

                               National Council of Senior Citizens, Inc.
                     National Senior Citizens Education & Research Center, Inc.

                     Proposed and Audit-Recommended Indirect Costs and Rates
                                         Fiscal Year 1996

                                                             Results of Audit
                                          Proposed      Questioned Recommended       Finding
     Indirect Cost Element              by NSCERC       by Auditors    by Auditors   Number

Salaries                                 $ 1,710,582     $ 181,920                      8a
                                                            66,561                      8d
                                                            79,000      $1,383,101       7

Fringe Benefits and Payroll Taxes           506,121          53,848                     8a
                                                             13,166                     8d
                                                             23,384                      7
                                                            (26,081)      441,804        4

Professional Fees and Services              319,166                       319,166
Supplies                                     29,977                        29,977
Office Furniture                              1,580                         1,580
Telephone                                    54,484                        54,484
Postage and Shipping                         38,548         10,881         27,667       8c
Building Occupancy                          759,654                       759,654
Rental Equipment                             19,267                        19,267
Repairs and Maintenance                      15,682                        15,682
Travel                                       64,571                        64,571
Conferences and Meetings                     45,511                        45,511
Printings and Publishing                     54,294          2,287         52,007       8c
Supportive Grants                             5,439                         5,439
Data Processing                              47,892                        47,892
Depreciation                                191,310                       191,310
Insurance and Taxes                         250,324        202,346         47,978    3&8b
Other Expenses                               22,438                        22,438

      Total Indirect Costs              $ 4,136,840     $ 607,312      $ 3,529,528

Allocation Base                         $24,386,630     $8,126,429     $16,260,201    Exhibit D



                                                72
Indirect Cost Rate                              0.1696                        0.2171

( )denotes increase
                                                                                              Exhibit D

                                National Council of Senior Citizens, Inc.
                      National Senior Citizens Education & Research Center, Inc.

                 Fiscal Year 1996 Allocation Base of Indirect and Direct In-House Costs


                                                               Results of Audit
                                           Proposed       Questioned Recommended          Finding
          Program                         by NSCERC       by Auditors    by Auditors      Number

DOL SCSEP                                 $ 14,634,601      $ 948,983                         1
                                                              244,584                         2
                                                              237,532                         3
                                                              103,545                         4
                                                              108,872                         5
     Subtotal                                               1,643,516*

                                                           (2,160,473)                        9
                                                             (376,215)                        9
                                                            9,321,951                         9
     Subtotal                                               6,785,263** $ 6,205,822

EPA SEE                                      6,133,501        222,993                         6
                                                             (202,346)                       8b
                                                              172,346                         3
                                                             (235,768)     6,176,276         8a
I.M. CARES                                     279,139                       279,139
WHOA                                             6,000                         6,000
NCSC                                         2,792,795        (77,737)                        4
                                                              (79,727)     2,950,259         8d
NSCERC                                          29,082            273                         4
                                                             (102,384)      131,193           7
Overall Adjustments per NCSC Submission     511,512                         511,512
     Total Direct In-House
        Program Costs                   $24,386,630       $8,126,429     $16,260,201       (Exhibit C)

Indirect Costs                            $ 4,136,840     $ 607,312      $ 3,529,528       (Exhibit C)


                                                  73
Indirect Cost Rate              0.1696   0.2171

( )denotes increase
* Direct costs questioned
**Allocation base adjustments




                                  74
APPENDIX




   75
Appendix - Auditee’s Comments
    (Dated June 11, 1999)




             76
